<html>
<title> - EXAMINING THE CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AND ITS FAILED OVERSIGHT OF TAXPAYER DOLLARS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                 EXAMINING THE CORPORATION FOR NATIONAL
                  AND COMMUNITY SERVICE AND ITS FAILED
                     OVERSIGHT OF TAXPAYER DOLLARS

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE DEVELOPMENT

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 28, 2017

                               __________

                           Serial No. 115-11

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                
                
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
24-758 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8bfa8b798bbadabacb0bdb4a8f6bbb7b5f6">[email&#160;protected]</a>                
                
                
                
                
                
                
                
                COMMITTEE ON EDUCATION AND THE WORKFORCE

               VIRGINIA FOXX, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia
David P. Roe, Tennessee              Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Lou Barletta, Pennsylvania           Jared Polis, Colorado
Luke Messer, Indiana                 Gregorio Kilili Camacho Sablan,
Bradley Byrne, Alabama                 Northern Mariana Islands
David Brat, Virginia                 Frederica S. Wilson, Florida
Glenn Grothman, Wisconsin            Suzanne Bonamici, Oregon
Steve Russell, Oklahoma              Mark Takano, California
Elise Stefanik, New York             Alma S. Adams, North Carolina
Rick W. Allen, Georgia               Mark DeSaulnier, California
Jason Lewis, Minnesota               Donald Norcross, New Jersey
Francis Rooney, Florida              Lisa Blunt Rochester, Delaware
Paul Mitchell, Michigan              Raja Krishnamoorthi, Illinois
Tom Garrett, Jr., Virginia           Carol Shea-Porter, New Hampshire
Lloyd K. Smucker, Pennsylvania       Adriano Espaillat, New York
A. Drew Ferguson, IV, Georgia

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE DEVELOPMENT

                   BRETT GUTHRIE, Kentucky, Chairman

Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Lou Barletta, Pennsylvania             Ranking Member
Luke Messer, Indiana                 Joe Courtney, Connecticut
Bradley Byrne, Alabama               Alma S. Adams, North Carolina
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Elise Stefanik, New York             Raja Krishnamoorthi, Illinois
Rick W. Allen, Georgia               Jared Polis, Colorado
Jason Lewis, Minnesota               Gregorio Kilili Camacho Sablan,
Paul Mitchell, Michigan                Northern Mariana Islands
Tom Garrett, Jr., Virginia           Mark Takano, California
Lloyd K. Smucker, Pennsylvania       Lisa Blunt Rochester, Delaware
                                     Adriano Espaillat, New York
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 28, 2017...................................     1

Statement of Members:
    Davis, Hon. Susan A., Ranking Member, Subcommittee on Higher 
      Education and Workforce Development........................     4
        Prepared statement of....................................     5
    Guthrie, Hon. Brett, Chairman, Subcommittee on Higher 
      Education and Workforce Development........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Bawden, Ms. Allison, Acting Director of Education, Workforce, 
      and Income Security, Government Accountability Office......     7
        Prepared statement of....................................     9
    Darling, Ms. Elizabeth, CEO and President Onestar Foundation 
      and National Service Commission............................    28
        Prepared statement of....................................    30
    Giblin, Ms. Lori, Chief Risk Officer, Corporation for 
      National and Community Service.............................    20
        Prepared statement of....................................    22
    Jeffrey, Hon. Deborah, Inspector General, Corporation for 
      National and Community Service.............................    42
        Prepared statement of....................................    44

Additional Submissions:
    Courtney, Hon. Joe, a Representative in Congress from the 
      State of Connecticut:
        Article: TVCCA to open coffeehouse for veterans..........    80
        Article: Veterans coffeehouse celebrated.................    86
        Article: Town supports Veterans Coffeehouse..............    90
    Mrs. Davis:
        Letter dated March 7, 2017, from Voices for National 
          Service................................................    91
    Questions submitted for the record by:
        Mrs. Davis...............................................    95
        Chairman Guthrie........................................97, 100
        Scott, Hon. Robert C. ``Bobby'', a Representative in 
          Congress from the State of Virginia....................    95
    Responses to questions submitted for the record:
        Ms. Darling..............................................   101
        Ms. Giblin...............................................   107
        Ms. Jeffrey..............................................   118

 
                     EXAMINING THE CORPORATION FOR
                     NATIONAL AND COMMUNITY SERVICE
                      AND ITS FAILED OVERSIGHT OF
                            TAXPAYER DOLLARS

                              ----------                              


                        Tuesday, March 28, 2017

                     U.S. House of Representatives

                Committee on Education and the Workforce

       Subcommittee on Higher Education and Workforce Development

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Brett Guthrie 
[chairman of the subcommittee] presiding.
    Present: Representatives Guthrie, Thompson, Messer, 
Grothman, Allen, Lewis, Mitchell, Smucker, Davis, Courtney, 
Adams, DeSaulnier, Krishnamoorthi, Polis, Sablan, Takano, Blunt 
Rochester, and Espaillat.
    Also Present: Representatives Foxx, Scott, and Rooney.
    Staff Present: Courtney Butcher, Director of Member 
Services and Coalitions; James Forester, Professional Staff 
Member; Tyler Hernandez, Deputy Communications Director; Amy 
Raaf Jones, Director of Education and Human Resources Policy; 
Nancy Locke, Chief Clerk; Dominique McKay, Deputy Press 
Secretary; James Mullen, Director of Information Technology; 
Brian Newell, Communications Director; Krisann Pearce, General 
Counsel; Alex Ricci, Legislative Assistant; Mandy Schaumburg, 
Education Deputy Director and Senior Counsel; Alissa 
Strawcutter, Deputy Clerk; Tylease Alli, Minority Clerk/Intern 
and Fellow Coordinator; Austin Barbera, Minority Press 
Assistant; Jacque Chevalier, Minority Deputy Education Policy 
Director; Denise Forte, Minority Staff Director; Mishawn 
Freeman, Minority Staff Assistant; Carolyn Hughes, Minority 
Senior Labor Policy Advisor; Alexander Payne, Minority 
Education Policy Advisor; and Veronique Pluviose, Minority 
Civil Rights Counsel.
    Chairman Guthrie. Good morning. A quorum being present the 
Subcommittee on Higher Education and Workplace Development will 
come to order.
    Good morning and welcome to today's hearing on the 
Corporation for National and Community Service. One of the most 
important responsibilities given to Congress by the 
Constitution is oversight of the Federal bureaucracy. As 
members of this committee, we share in that responsibility by 
conducting oversight of the departments, agencies, commissions, 
and government corporations at our jurisdiction.
    It is our duty to hold the executive branch accountable for 
both the way it administers the law and how it spends taxpayer 
dollars and that is why we are here today, to hold the 
Corporation for National and Community Service accountable.
    Commonly known as CNCS, the corporation is an independent 
Federal agency created in 1993 to oversee a range of community 
service programs and grants, including AmeriCorps and 
SeniorCorps programs.
    Today it receives more than $1 billion a year to support 11 
different initiatives and issues $750 million in grants 
annually. In fact, at any given time, CNCS is responsible for 
overseeing more than 2,000 active grants ranging in size from 
$40,000 to $10 million.
    That is a significant amount of money, making the 
corporation's oversight of those funds significantly important. 
CNCS has a responsibility to ensure taxpayer dollars are being 
spent in full compliance with the law. However, time and time 
again, the corporation has fallen short of the goal.
    Just last year, the subcommittee held a hearing after 
learning about a particularly egregious misuse of taxpayer 
dollars under the corporation's watch. As the corporation's 
inspector general reported, one AmeriCorps grantee allowed 
members to participate in illegal activity by providing support 
services during abortion procedures, all the while continuing 
to receive taxpayer funds. Incidents like this are simply 
unacceptable.
    CNCS has a history of failing to prevent the unlawful use 
of taxpayer dollars. According to the corporation's own 
inspector general, AmeriCorps may have misspent at least $14.5 
million in 2015. I say ``at least'' because the information 
used to determine the extent of that misspending was not 
statistically valid, complete, or accurate. The actual amount 
may have been even higher.
    Due to poor planning, CNCS could not even determine the 
amount misspent in 2016. Additionally, it is estimated that 
SeniorCorps programs misspent $47 million in 2016. Let me 
repeat that, 47 million. That's 30 percent of SeniorCorps' 
total spending.
    Of course, while misspending is a serious problem, the 
corporation's oversight failures extend beyond funding. Under 
Federal law, CNCS grantees are required to perform criminal 
history checks on their participants and staff to ensure that 
safety of the individuals and communities they serve. However, 
the corporation's chief risk officer found that an alarming 
number of grantees failed to properly do so last year. In fact, 
40 percent of the participants or staff in the senior companion 
program and 41 percent in the retired and senior volunteer 
program did not undergo the required background checks.
    These are just two examples, but the percentages are 
shocking. We are talking about individuals who are working 
closely with our seniors and some of the most vulnerable 
members of our local communities, yet we know nothing or very 
little about their background or criminal histories. That is 
just not an issue of mismanaged or misspent money. It is an 
issue of safety and security.
    It is clear CNCS is not fulfilling its responsibilities to 
ensure taxpayer dollars are spent in accordance with the law. 
We the members of the committee have the responsibility to 
demand better.
    We are joined today by several individuals who are very 
familiar with the corporation's shortcomings. I would like to 
thank you all for being here today and I look forward to 
discussing the changes that must be made at CNCS. We have quite 
a bit of ground to cover, so I will now recognize Ranking 
Member Davis for opening remarks.
    [The statement of Chairman Guthrie follows:]

  Prepared Statement of Hon. Brett Guthrie, Chairman, Subcommittee on 
               Higher Education and Workforce Development

    One of the most important responsibilities given to Congress by the 
Constitution is oversight of the federal bureaucracy. As members of 
this committee, we share in that responsibility by conducting oversight 
of the departments, agencies, commissions, and government corporations 
in our jurisdiction. It is our duty to hold the executive branch 
accountable both for the way it administers the law and how it spends 
taxpayer dollars. And that's why we are here today--to hold the 
Corporation for National and Community Service accountable.
    Commonly known as CNCS, the corporation is an independent federal 
agency, created in 1993 to oversee a range of federal community service 
programs and grants, including AmeriCorps and SeniorCorps programs. 
Today, it receives more than $1 billion dollars a year to support 11 
different initiatives and issues $750 million in grants annually. In 
fact, at any given time, CNCS is responsible for overseeing more than 
2,000 active grants--ranging in size from $40,000 to $10 million.
    That's a significant amount of money, making the corporation's 
oversight of those funds significantly important. CNCS has a 
responsibility to ensure taxpayer dollars are being spent in full 
compliance with the law. However, time and time again, the corporation 
has fallen short of that goal.
    Just last year, this subcommittee held a hearing after learning 
about a particularly egregious misuse of taxpayer dollars under the 
corporation's watch. As the corporation's Inspector General reported, 
one AmeriCorps grantee allowed members to participate in illegal 
activity by providing support services during abortion procedures--all 
while continuing to receive taxpayer funds. Incidents like this one are 
simply unacceptable.
    CNCS has a history of failing to prevent the unlawful use of 
taxpayer dollars. According to the corporation's own Inspector General, 
AmeriCorps misspent at least $14.5 million in 2015. I say ``at least'' 
because the information used to determine the extent of that 
misspending was not ``statistically valid, complete, or accurate''--
meaning the actual amount may have been even higher. Due to poor 
planning, CNCS could not even determine the amount misspent in 2016.
    Additionally, it is estimated that Senior Corps programs misspent 
$47 million dollars in 2016. Let me repeat that: $47 million. That's 30 
percent of Senior Corps' total spending.
    Of course, while misspending is a serious problem, the 
corporation's oversight failures extend beyond funding.
    Under federal law, CNCS grantees are required to perform criminal 
history checks on their participants and staff to ensure the safety of 
the individuals and communities they serve. However, the corporation's 
Chief Risk Officer found that an alarming number of grantees failed to 
properly do so last year. In fact, 40 percent of participants or staff 
in the Senior Companion Program and 41 percent in the Retired and 
Senior Volunteer Program didn't undergo the required background checks. 
These are just two examples, but the percentages are shocking. We are 
talking about individuals who are working closely with our seniors and 
some of the most vulnerable members of our local communities. Yet, we 
know nothing or very little about their background or criminal 
histories. That's not just an issue of mismanaged or misspent money. 
It's an issue of safety and security.
    It is clear CNCS is not fulfilling its responsibilities to ensure 
taxpayer dollars are spent in accordance with the law. We, the members 
of this committee, have a responsibility to demand better.
                                 ______
                                 
    Mrs. Davis. Thank you very much. Good morning, thank you, 
Chairman Guthrie. I also want to very warmly thank our 
witnesses for being here and providing your experience and 
expertise.
    Last year, 325,000 Americans, serving through AmeriCorps 
and SeniorCorps invested 155 million hours of service to their 
communities at more than 50,000 locations across the Nation. 
The majority called this hearing today because of 10 total 
service hours performed by 6 AmeriCorps members. That is 10 
hours out of 155 million hours of service performed last year. 
CNCS funding last year was $1.01 billion, which means taxpayers 
gave CNCS $6.51 per hour of service performed. So the majority 
is holding a hearing because they do believe that this $65.10 
was mismanaged. It is also important to remember the 
President's budget as the backdrop to the conversation that we 
are having today. President Trump's Skinny Budget would 
completely do away with the funding for the Corporation for 
National and Community Service.
    Mr. Chairman, I ask unanimous consent to enter into the 
record this letter signed by 65 current and former Republican 
officials expressing strong support for funding CNCS in this 
year's appropriations bill. And I want to point out that this 
list includes Republicans, like Mississippi Governor Haley 
Barbour, former Congressman Chris Gibson and Ron Kauffman, who 
served as President George H.W. Bush's political director.
    Since its founding, CNCS has engaged millions of volunteers 
in national and community service. These volunteers have taught 
students, they have been mentors, helped local communities 
recover from national disasters, and helped our Nation's 
veterans adjust to civilian life. Beyond that, CNCS has taught 
generations of Americans about the importance of national 
service.
    National service is the only way to ensure and inform 
empathic citizenry and a healthy Nation and that is exactly 
what these volunteers do. In fact, the local partnerships that 
CNCS supports are so successful that they leverage 15 private 
dollars for every 10 Federal dollars that we invest.
    Such success means that CNCS and its members are there 
during the times America needs them most. During the Flint 
water crisis, for example, CNCS deployed an AmeriCorps team to 
Flint, Michigan, to support State and local efforts to protect 
the public health of residents facing challenges from increased 
lead levels in the Flint water supply.
    When hurricane Katrina devastated the South, CNCS deployed 
an AmeriCorps team to the region. When tornadoes wreaked havoc 
in Oklahoma, AmeriCorps volunteers were there. In my own 
district, AmeriCorps VISTA members collaborate with veterans' 
service providers to create the most comprehensive and seamless 
transition process for all military members and veterans.
    They connect veterans and military families to housing, 
financial literacy, and employment resources throughout our 
district. The Edward M. Kennedy Serve America Act signed into 
law by President Obama in 2009 reauthorized and expanded the 
national service programs administered by CNCS. Passed with 
strong bipartisan support, the Act showed how much America 
values national service by expanding service programs so over 4 
million Americans could engage in results-driven service each 
year.
    With regard to last year's AmeriCorps incident, CNCS 
discovered and resolved these issues with deliberate action. 
I'm sorry, but I can't help but think that if what happened was 
related to anything other than women's health services, CNCS 
would not be called in front of us here today for the second 
time and about the same incident.
    So as we proceed with this hearing, I hope that we remain 
focused on the vital importance of service to our Nation. I 
have had many conversations with my colleagues across the aisle 
who agreed that service is a crucial part of engaging Americans 
and their communities.
    CNCS gives us the vehicle to invest in our national service 
infrastructure and we have a great deal to learn about the way 
that they have done that.
    While we should value and uphold oversight and enforcement, 
we must also remember that CNCS engages over a million 
volunteers who assist local communities across America, 
communities represented on both sides of the aisle.
    I look forward to hearing more about how we can improve and 
strengthen national service programs that are so important to 
our Nation's success. Thank you, Mr. Chairman.
    [The statement of Mrs. Davis follows:]

Prepared Statement of Hon. Susan A. Davis, Ranking Member, Subcommittee 
             on Higher Education and Workforce Development

    Good morning and thank you, Chairman Guthrie. I would also like to 
thank our witnesses for being here.
    Last year, 325,000 Americans serving through AmeriCorps and Senior 
Corps invested 155 million hours of service to their communities at 
more than 50,000 locations across the nation. The Majority called this 
hearing today because of ten total service hours performed by six 
AmeriCorps members. That's 10 hours out of the 155 million hours of 
service performed last year. CNCS funding last year was $1.01 billion, 
which means taxpayers gave CNCS $6.51 per hour of service performed. 
So, the Majority is holding a hearing because THEY believe $65.10 was 
mismanaged.
    It is also important to remember the President's budget as the 
backdrop to the conversation we're having today. President Trump's 
``skinny'' budget would completely do away with the funding for the 
Corporation for National and Community Service.
    Mr. Chairman, I ask unanimous consent to enter into the record this 
letter signed by 65 current and former Republican officials expressing 
strong support for funding CNCS in this year's appropriations bill. I 
want to point out that this list includes Republicans like former 
Mississippi Governor Haley Barbour, former Congressman Chris Gibson, 
and Ron Kaufman, who served as President George H. W. Bush's political 
director.
    Since its founding, CNCS has engaged millions of volunteers in 
national and community service. These volunteers have taught students, 
been mentors, helped local communities recover from natural disasters, 
and helped our nation's veterans adjust to civilian life.
    Beyond that, CNCS has taught generations of Americans about the 
importance of national service. National service is the only way to 
ensure an informed, empathetic citizenry and healthy nation. And that 
is exactly what these volunteers do. In fact, the local partnerships 
that CNCS supports are so successful that they leverage 15 private 
dollars for every 10 federal dollars that we invest.
    Such success means CNCS and its members are there during the times 
Americans are most in need:
    * During the Flint Water Crisis, CNCS deployed an AmeriCorps team 
to Flint, Michigan, to support state and local efforts to protect the 
public health of residents facing challenges from increased lead levels 
in the Flint water supply.
    * When Hurricane Katrina devastated the South, CNCS deployed an 
AmeriCorps team to the region.
    * When tornadoes wreaked havoc in Oklahoma, AmeriCorps 
volunteerswere there.
    * In my own district, AmeriCorps VISTA members collaborate with 
veterans' service providers to create the most comprehensive and 
seamless transition process for all military members and veterans. They 
connect veterans and military families to housing, financial literacy, 
and employment resources throughout our district.
    The Edward M. Kennedy Serve America Act, signed into law by 
President Obama in 2009, reauthorized and expanded the national service 
programs administered by CNCS. Passed with strong bipartisan support, 
the Act showed how much America values national service by expanding 
service programs so over four million Americans could engage in 
results-driven service each year.
    With regard to last year's AmeriCorps incident, CNCS discovered and 
resolved these issues with deliberate action. I can't help but think 
that if what happened was related to anything other than women's health 
CNCS would not be called in front of us here today. For the second 
time. About the same incident.
    As we proceed with this hearing, I hope that we remain focused on 
the vital importance of service to our nation. I've had many 
conversations with my colleagues across the aisle who agree that 
service is a crucial part of engaging Americans in their communities. 
CNCS gives us the vehicle to invest in our national service 
infrastructure. While we should value and uphold oversight and 
enforcement, we must also remember that CNCS engages over a million 
volunteers who assist local communities across America, communities 
represented on both sides of the aisle.
    I look forward to hearing more about how we can improve and 
strengthen national service programs that are so important to our 
nation's success.
    Thank you.
                                 ______
                                 
    Chairman Guthrie. Thank you and before moving on, I just 
want to clarify the hearing is about $750 million that has 
been--CNCS, the oversight of that, that is spent by CNCS or 
granted by CNCS.
    So pursuant to the Committee Rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record, and without objection the hearing 
record will remain open for 14 days to allow such statements 
and other extraneous material referenced during the hearing to 
be submitted for the official hearing record.
    I will now turn to the introduction of our distinguished 
witnesses. Ms. Alison Bawden, is that correct? Ms. Bawden 
serves as the acting director of Education, Workforce, and 
Income Security Team for the General Accountability Office. Ms. 
Lori Giblin serves as the chief risk officer for the 
Corporation for National and Community Service.
    Ms. Elizabeth Darling is the president and CEO of the 
OneStar Foundation and previously served as the chief operating 
officer for the Corporation of National and Community Service.
    And the Honorable Deborah Jeffrey is the inspector general 
for the Corporation for National and Community Service.
    I will now ask the witnesses to raise your right hand. Do 
you solemnly swear or affirm that the testimony you are about 
to give will be the truth, the whole truth, and nothing but the 
truth?
    [Witnesses sworn.]
    Chairman Guthrie. Let the record reflect the witnesses 
answered in the affirmative.
    And before I recognize you to provide your testimony, let 
me briefly explain our lighting system. You each have 5 minutes 
to present your testimony. When you begin, the light in front 
of you will turn green. When 1 minute is left, the light will 
turn yellow. When your time has expired, the light will turn 
red. At that point, I will ask you to wrap up your remarks as 
best as you are able. Members will each have 5 minutes to ask 
questions following the testimony.
    So now, Ms. Bawden, I will recognize you for 5 minutes for 
your testimony.

  TESTIMONY OF ALLISON BAWDEN, ACTING DIRECTOR OF EDUCATION, 
   WORKFORCE, AND INCOME SECURITY, GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. Bawden. Chairman Guthrie, Ranking Member Davis, and 
members of the subcommittee, thank you for inviting me to 
discuss GAO's recently completed work on grant monitoring by 
the Corporation for National Community Service. My remarks 
today highlight key findings and recommendations from that work 
with respect to, first, whether the corporation's current 
process for monitoring grants aligns with standards for 
identifying, analyzing, and responding to risk; and second, 
whether the corporation has the capacity necessary to monitor 
its grantees' compliance with program requirements. In fiscal 
year 2015, the corporation had over 2,000 active grants 
totaling about $750 million.
    As such, the corporation is administering and monitoring a 
significant Federal investment. Bottom line, it is essential 
for the corporation to have a full understanding of the 
potential risks of the grants and awards and to align its 
monitoring efforts to mitigate the most significant risks. 
Currently, the corporation annually assesses grants that it 
expects to be active in the next fiscal year. Up to 19 
indicators are assessed for each grant and scores for each 
indicator are weighted to result in a total.
    This total places each grant into a high, medium, or low 
priority category for grant monitoring activities. These 
activities mainly consist of visits and desk reviews, among 
other things, to assure compliance with fiscal and program 
requirements.
    First, we found that the corporation's current process for 
grant monitoring is not fully aligned with the federal 
standards for internal control that describe how agencies 
should identify, analyze, and respond to risk. We recommended 
actions the corporation should take to better consider risk 
when prioritizing grants for monitoring, including these three.
    One, the corporation should establish and implement a 
policy to ensure that all grants expected to be active during 
the next fiscal year are, in fact, assessed for potential risk. 
We found that some grants, particularly new ones, may be 
omitted from the assessment process in the year they are first 
awarded because the reward was made after the process was 
complete. One program officer told us that monitoring new 
grants in their first year can help avoid future problems.
    Two, the corporation should improve its collection of 
information used to oversee subrecipients, especially with 
respect to their conduct of required criminal history checks. 
Sub-recipients receive pass-through funds from the 
corporation's grantees and the corporation is required to 
monitor how its grantees oversee those subrecipients. We found 
that the corporation has limited standard monitoring 
requirements for subrecipient oversight and that the 
subrecipient information collected by grantees may cover only a 
small portion of criminal history check activities.
    And three, the corporation should revise its assessment 
indicators to meaningfully cover all identifiable risks and 
revise their scoring so that the riskiest grants get the 
highest scores. We found that the indicators may not address 
all potential risks such as fraud and that the highest scoring 
indicator may not measure grant risk.
    The corporation has taken some steps to improve how its 
assessment and monitoring processes consider risk. For example, 
it established the Office of the Chief Risk Officer, which has 
begun to benchmark assessment indicators against those of other 
Federal grant-making agencies and programs. However, 
improvement efforts are in their early stages and do not 
address the full scope of our findings.
    As a result, we made the recommendations I discussed to 
help guide the corporation's efforts as it moves forward. The 
corporation did not comment on them.
    Second, with respect to strategic workforce planning, we 
found that the corporation has not determined whether it has 
the people and resources to effectively monitor grantees' 
compliance with program requirements.
    The corporation's efforts to address vacancies have been 
largely ad hoc, including for senior-level grant-monitoring 
positions, and we found that vacancies did affect the number of 
grant-monitoring activities conducted in fiscal year 2015.
    The corporation also has not evaluated whether staff have 
been deployed where they are most needed.
    Officials said they had not developed a strategic workforce 
planning process because of limited resources. We concluded 
that the corporation's efforts to address workforce challenges 
may continue to be ad hoc without such planning and recommended 
that it be conducted. The corporation also did not comment on 
this finding or recommendation.
    In closing, thank you for your time today. I would be 
pleased to respond to any questions you may have.
    [The statement of Ms. Bawden follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Guthrie. Thank you for your testimony. Ms. Giblin, 
you are now recognized for 5 minutes for your testimony.

 TESTIMONY OF LORI GIBLIN, CHIEF RISK OFFICER, CORPORATION FOR 
                 NATIONAL AND COMMUNITY SERVICE

    Ms. Giblin. Chairman Guthrie, Ranking Member Davis, and 
members of the subcommittee, thank you for inviting me to 
testify today. I share the committee's view that our agency has 
a responsibility to ensure Federal funds are well managed and 
welcome this opportunity to discuss our commitment to strong 
risk management and prudent stewardship of taxpayer dollars.
    My written testimony details our comprehensive risk 
management frameworks and the multiple steps we have taken 
since the subcommittee hearing last year. I will summarize them 
now. To properly identify and manage risk, the first step has 
to be a commitment from the top. CNCS leadership has made an 
extraordinary commitment to risk management and has backed up 
that commitment with action.
    We are one of the first independent and small Federal 
agencies to hire a chief risk officer. We are one of the only 
agencies that has aligned all of our risk assessment functions 
into one integrated framework. We have been identified as a 
leader among our peers in implementing the principles of risk 
management laid out by OMB.
    Even in an extremely tight budget environment, we have 
redirected scarce resources to ensure this function is properly 
staffed and have hired 17 professionals with extensive 
experience in accounting, auditing, compliance, internal 
controls, and risk management. Over many years, CNCS has built 
a culture of accountability and a strong system for monitoring 
and oversight.
    Now, with the strong commitment for leadership, infusion of 
resources, and a top-notch team, we are building on that 
foundation to implement a risk-based program modeled on 
industry best practices.
    Our focus is to identify actual evidence-based risks, 
validate and prioritize them, and mitigate them on an ongoing 
basis. We follow leading industry practices in organizing risk 
into four basic categories: programmatic, financial, 
compliance, and fraud.
    In the area of programmatic risk, we provide training and 
technical assistance to our grantees to assist them in 
successfully implementing their programs. For financial risk, 
we continually assess our grantees' financial liability and 
ability to manage Federal funds. If a grantee has challenges, 
we use a wide range of strategies and corrective actions, 
including increased monitoring, putting grantees on a 
reimbursement only status, requiring them to report monthly on 
expenditures, termination, suspension, and debarment.
    For compliance and fraud risk, we have taken multiple steps 
to ensure that grantees comply with the terms and conditions of 
their award and to ensure that we safeguard the agency against 
fraud, waste, and abuse.
    To ensure our work is effective, coordinated, and 
delivering results, we have consolidated five risk assessment 
programs under my office.
    First, we are taking comprehensive action to improve 
compliance with national service criminal history check 
requirements. We implemented a solution enabling our grantees 
to directly obtain FBI checks from a private vendor. We are now 
seeking another market-based solution to conduct the State 
criminal history checks that many of our grantees are currently 
unable to perform. This solution will include a check of the 
National Sex Offender public website, which will ensure that a 
required check is complete.
    We are leaning in, going beyond what is required, to do 
what is smart by providing resources to our grantees so they 
can better detect and prevent misconduct before it happens. My 
office is implementing a testing process for improper payments 
that will help us identify root causes of noncompliance and 
more accurately report the effectiveness of our program to 
eliminate such payments.
    The agency is taking multiple steps to strengthen internal 
controls, including testing enterprise-wide controls, convening 
a fraud risk assessment committee, and aligning our internal 
controls annual testing approach with industry best practices.
    CNCS is also implementing an enterprise risk management 
program and developing a risk profile that will inform how 
management invests limited resources and risk mitigation 
strategies.
    And last, we are refining the criteria used in the annual 
grant risk assessment that informs the types of monitoring and 
technical assistance grantees require. All these actions and 
many others demonstrate the priority we place on risk 
management and the commitment we have to accountability and the 
responsible use of taxpayer dollars.
    Our systems for monitoring oversight are working. 
Misconduct is very rare and when it happens, we take swift 
action. We are always looking for ways to improve and 
strengthen our systems and we appreciate the guidance from our 
IG and from GAO and this committee. Enhancing these systems 
will help us better support the 325,000 dedicated Americans 
serving through AmeriCorps and SeniorCorps at 50,000 locations 
across our Nation.
    They are tutoring and mentoring at-risk youth, responding 
to disasters, supporting veterans and their families, and much 
more, all while recruiting millions of additional volunteers to 
serve alongside them and multiply their impact.
    I hope my testimony today assures the committee of our 
commitment to accountability and our interest in doing more and 
I welcome your questions.
    [The statement of Ms. Giblin follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Guthrie. Thank you for your testimony. I know 
recognize Ms. Darling for 5 minutes for her testimony.

  TESTIMONY OF ELIZABETH DARLING, CEO AND PRESIDENT, ONESTAR 
           FOUNDATION AND NATIONAL SERVICE COMMISSION

    Ms. Darling. Mr. Chairman and members of the committee, 
thank you for inviting me to testify today. I appreciate the 
opportunity to discuss the Corporation for National and 
Community Service and their unique structure and systems of 
accountability and oversight.
    I am also pleased to share with you a snapshot of how the 
State of Texas benefits from the corporation grant funding 
administered by OneStar National Service Commission. OneStar is 
1 of 52 State service commissions charged with strengthening 
local communities through service and volunteering. The 
corporation's decentralized structure provides States the 
flexibility to meet local needs in alignment with our 
governor's priorities. Three-quarters of the corporations of 
AmeriCorps funding flows through governor-appointed State 
service commissions.
    In Texas, OneStar administers approximately $14 million in 
corporation grant funding through a highly competitive process 
engaging nonprofits, State agencies, universities, and local 
governments. These funds leverage an additional $31 million in 
private cash and in-kind support for 2,400 AmeriCorps VISTA 
members who collectively will earn over $9 million in education 
awards that may be used to repay student loans or for 
continuing education.
    Many private Texas funders look to OneStar's portfolio of 
programs to inform their own grant decisions. They know our 
grant making is rigorous from our intensive pre-award vetting 
to risk assessment to subsequent monitoring of performance 
throughout the life cycle of the grant. Commissions truly are 
the first line of defense in ensuring accountability and good 
stewardship of taxpayer dollars.
    In Texas, we don't hesitate to disallow costs for even the 
smallest compliance issue. Our subgrantees know that we don't 
tolerate noncompliance and if mistakes are made, there are real 
financial consequences.
    Compliance is critical and community impact is the ultimate 
goal. National service, whether AmeriCorps or its companion 
program, SeniorCorps, allows nonprofits to serve thousands more 
people than they could otherwise serve. In 2016, AmeriCorps 
Texas programs served almost 153,000 at-risk youth. Thirty 
thousand SeniorCorps members in Texas kept frail, elderly 
Texans in their homes, mentored youth in detention facilities, 
and responded in times of disaster.
    Like many State service commissions, OneStar works closely 
with our Division of Emergency Management. We are named in our 
State disaster response plan as the point of contact for 
national service and the coordination of unaffiliated 
volunteers.
    Last year, 1,600 AmeriCorps members recruited, trained, and 
managed almost 11,000 volunteers who responded to a series of 
disasters and still assist today in ongoing recovery projects, 
including Southeast Texas flooding, Wimberley flooding, 
Memorial Day flooding, the Hidden Pines wildfire, Halloween 
flooding, North Texas tornadoes, the 2015 Van tornadoes, and 
the 2013 West Fertilizer explosion.
    These are not just names of unfortunate events. These are 
now threads in the fabric of Texas history. Texas will soon 
also be home base to the first RV DisasterCorps, deploying 
SeniorCorps volunteers and their recreational vehicles in 
response to disasters within our 254 county region. Over the 
past 5 years, the corporation has mobilized thousands of 
SeniorCorps volunteers and AmeriCorps members throughout the 
country in response to over 200 declared disasters, some in 
your home States and districts.
    Along the southernmost tip of Texas is a border region 
known as the Rio Grande Valley, an area of high need and few 
resources to lift people out of poverty. The University of 
Texas Rio Grande Valley AmeriCorps program supports 160 
university students as mentors, providing college access 
services to over 5,000 low-income, first-generation high school 
seniors and last year, over 3,300 of those school students 
successfully enrolled in postsecondary education. The Literacy 
First AmeriCorps program in Austin supports 106 AmeriCorps 
members at 32 high-poverty schools, providing daily intensive, 
individualized reading interventions to over 2,000 
kindergarten, first grade, and second grade students. 
Approximately two-thirds of those tutored students reach grade 
level by the end of the school year.
    OneStar, like the commission in your State, is able to 
support these high-performing programs because of CNCS. The 
corporation provides consistent guidance, resources, and tools 
to assist us in our work. Our staff attend comprehensive 
trainings, adopt CNCS developed monitoring tools and templates, 
and receive regular and frequent support from dedicated program 
and grants officers.
    My written testimony provides greater detail on the 
corporation's support and monitoring of OneStar National 
Service Commission as well as our policies and procedures 
related to the oversight of subgrantees. I am grateful to the 
committee and to each of you as public servants charged with 
ensuring that taxpayer dollars are used effectively and that 
all actors are good stewards of the resources with which we are 
entrusted. Thank you.
    [The statement of Ms. Darling follows:]
    [
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Guthrie. Thank you for your testimony, Ms. 
Jeffrey, you are recognized 5 minutes to testify.

TESTIMONY OF THE HONORABLE DEBORAH JEFFREY, INSPECTOR GENERAL, 
         CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

    Ms. Jeffrey. Chairman Guthrie, Ranking Member Davis, 
Chairwoman Foxx, Ranking Member Scott, and members of the 
subcommittee, thank you for the opportunity to testify today 
about the Office of Inspector General's recommendations to 
strengthen grant oversight at CNCS.
    The OIG is an independent and nonpartisan unit charged with 
preventing and detecting waste, fraud, and abuse, and improving 
the efficiency and effectiveness of CNCS and its programs.
    My written statement describes the progress that CNCS has 
made since I last appeared before you 10 months ago. Today, I 
would like to describe significant challenges that remain. For 
the first time in my 5 years as inspector general, CNCS has the 
skilled leadership and experienced staff needed to make 
progress in the areas that have historically proven 
challenging.
    Criminal history checking, identifying and reducing 
improper payments, and developing robust, risk-based grant 
management, rapid improvements in these areas are needed to 
compensate for years of inaction and ineffective action. The 
first longstanding challenge that CNCS must tackle is 
strengthening grant risk management. Currently, the corporation 
continues to operate under legacy grant oversight protocols 
that my office has consistently found to be flawed. It relies 
heavily on a risk model that has never been validated. OIG's 
preliminary analysis of grants with catastrophic outcomes found 
that half of them were rated as low or medium risk.
    Our audits and investigations often uncover serious 
problems not anticipated by CNCS's risk assessment and we find 
that red flags were overlooked. CNCS has not done enough to 
learn from those bad outcomes.
    The current risk model omits fraud risk, although OIG has 
uncovered significant frauds. A few months ago, for example, 
investigators reported that the CEO of a for-profit business 
used a shell nonprofit organization to obtain grant funds from 
CNCS, which were funneled back into the business through a 
management services agreement.
    Ultimately, one-quarter of the RSVP program funds spent by 
the grantee were paid to the CEO's for-profit business. Not a 
single one of the promised 176 volunteers was ever brought on 
board and no services were provided to the community. Proper 
risk management could have anticipated this. Related party 
transactions and common control between a prospective grantee 
and a for-profit business are the kind of red flags that should 
trigger close scrutiny. CNCS has not implemented OIG 
recommendations on this subject and even after the events of 
last year, including the hearing before this subcommittee, CNCS 
has not properly addressed the risk of prohibited activities or 
implemented the majority of OIG's recommendations on that 
subject. As OIG has repeatedly recommended, CNCS must better 
understand and acknowledge its grant risks to achieve a more 
granular assessment of risk broken into components. The agency 
also needs a cafeteria approach to monitoring, developing a 
menu of oversight activities that are tailored to particular 
risks where financial risks predominate. Grant officers and not 
program officers should perform the relevant monitoring.
    Keeping our communities safe from harm is another urgent 
challenge. Congress wisely mandated specific criminal history 
checks to prevent convicted murderers and sex offenders from 
using CNCS programs to gain access to at-risk individuals. Far 
too many grantees do not conduct these background checks timely 
and thoroughly.
    Last year, depending on the program, 22 to 41 percent of 
individuals paid through CNCS grants served without complete 
and timely criminal history checks. The risk is real and 
immediate. Last week, OIG learned that a three-time convicted 
sex offender served for more than a year in the
    senior companion program where he visited elderly 
individuals in their homes.
    Several years ago, an audit discovered a murderer and a sex 
offender working on a social innovation fund grant. CNCS has 
not enforced these requirements effectively. The nominal fines 
for compliance are too low to create proper incentives and may 
actually backfire.
    Over a 6-month period, we determined that fines average 
less than 1 percent of the funds awarded by CNCS. That's a 
small cost of doing business, not an effective sanction for 
recklessness.
    Mr. Chairman, this concludes my statement and I would be 
pleased to answer the subcommittee's questions.
    [The statement of Ms. Jeffrey follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Guthrie. Thank you for your testimony. The 
testimony is concluded. We will move into members' questions. 
And first, I will recognize the chairwoman of the full 
committee, Chairwoman Dr. Foxx, for 5 minutes for questions.
    Mrs. Foxx. Thank you, Mr. Chairman, and I want to thank our 
witnesses for being here today and providing their testimony. 
This is an area that I have a great deal of interest in.
    Ms. Bawden, in summary, your report seems to indicate the 
corporation does not monitor the most at-risk grantees and does 
not have a staff properly deployed or educated to ensure that 
it is conducting oversight monitoring to find and deter fraud 
and misuse of public funds. Did I get that right or would you 
characterize it another way?
    Ms. Bawden. Thank you. Generally, that is correct. What GAO 
found is that the process the corporation uses to assess grants 
and prioritize them for monitoring does not necessarily result 
in the highest risk grants receiving the highest priority for 
monitoring.
    Mrs. Foxx. Why is it concerning the corporation does not 
even know what grantees truly pose a risk?
    Ms. Bawden. The corporation has limited resources to 
conduct monitoring and it's essential that it focus those 
resources on the grants of highest risk.
    Mrs. Foxx. Thank you. One more question. In your report, 
you found the corporation's grant-monitoring process is not 
fully aligned with the internal controls for identifying, 
analyzing, and responding to risk. Given this finding, can you 
be fully confident that the corporation administers the 750 
million in grants in full compliance with the law?
    Ms. Bawden. No, I can't be fully confident of that and the 
recommendations that we made are addressed to the corporation 
in the hopes that they will move in that direction.
    Mrs. Foxx. Thank you. Ms. Giblin, in its fiscal year 2017 
Management Challenges report, the OIG listed reducing improper 
payments as a management challenge. In this context, challenge 
seems to mean a significant problem of the corporation. The OIG 
reports that according to your own sampling, the improper 
payment rates for the three SeniorCorps programs are 
extraordinarily high. In fact, your sampling found the rate of 
improper payments to be 34 percent in the foster grandparent 
program, 23 percent in the retired seniors volunteer program, 
and 33 percent in the senior companion program, fiscal year 
2016. Together this represents improper payments of $47 million 
or 30 percent of the SeniorCorps spending. Even worse, this is 
only the three SeniorCorps programs. You could not even 
estimate the rate of improper payments for the AmeriCorps State 
and national program, a much larger program. This is not a 
management challenge, but a management failure.
    Why should Congress and the taxpayers continue to provide 
funds for grants when a third or more of those funds are 
improperly disbursed?
    Ms. Giblin. Thank you for that question and I share your 
concerns. I have been working closely with the Office of 
Management and Budget as well as other Federal agencies to 
identify a testing mechanism, a methodology that will ensure 
that we can report with confidence to this body and to senior 
management on the rate of improper payment for our programs.
    I have been working with Federal agencies to identify best 
practices and driving down noncompliance. And my office is 
charged with all five aspects of risk management, including 
both the Improper Payments Program and the CHC Program, so that 
we can work in an integrated fashion to ensure that we are 
addressing the roots of noncompliance and working with our 
grantees to ensure that they have the tools necessary to 
effectively administer their programs.
    Mrs. Foxx. Thank you. Mr. Chairman and our ranking member, 
I will tell you, every time I come here and I am asked to spend 
money, I tell people I think about the hardworking taxpayers in 
my district who work very, very hard, play by the rules and 
give up their money to the Federal Government to provide for 
programs where they think we are going to make life better.
    This kind of fraud and abuse is not a good use of 
hardworking taxpayer dollars. And you know, I think the first 
thing we have to do is get rid of the word ``volunteer.'' You 
know, people making $29,000 a year are not volunteers. They are 
being paid, and so I think the very first thing we need to do 
is acknowledge the fact that these are not volunteers. And I 
have great respect for the ranking member, but I will tell you 
we should not waste a dime of hardworking taxpayer dollars and 
to excuse this kind of abuse and fraud is unconscionable. It is 
just unconscionable. Thank you, Mr. Chairman.
    Chairman Guthrie. I thank you for yielding back and the 
chair recognizes the ranking member, Mr. Scott, for 5 minutes 
for questions.
    Mr. Scott. Thank you, Mr. Chairman, Ranking Member Davis, 
and I would like to thank the witnesses for being with us today 
to testify about the benefits to our Nation from the 
Corporation of National and Community Services. Last year, 
325,000 Americans serving through AmeriCorps and SeniorCorps 
invested 155 million hours of service to their communities in 
more than 50,000 locations across the Nation.
    In my district alone, over a million dollars in funding 
from CNCS and matching contributions supported 253 AmeriCorps 
and SeniorCorps members, supporting programs like the Virginia 
Peninsula Boys and Girls Club, which inspires and enables youth 
to realize their full potential. Four of these clubs are 
strategically located in public housing developments. The 
larger benefits of the AmeriCorps experience greatly exceeds 
its cost. In our corps member surveys, 79 percent of corps 
alumni say that their service was a defining professional 
experience. Fifty-nine percent of hiring managers believe that 
AmeriCorps alumni have the soft skills difficult to find in 
traditional job applicants for job openings, and more than 450 
companies, including Disney, CSX, and Comcast, are prioritizing 
national service alumni in their hiring.
    An empirical study published by the Journal of Policy 
Analysis and Management found that AmeriCorps participants 
increased its members' civic engagement, connection to 
communities other than their own, and knowledge about the 
problem facing the community. Older participants who are not at 
the beginning of their careers, the report cites gains in 
health, self-esteem, life satisfaction, financial help, and 
civic capital resources. All these benefits I mentioned are 
reasons why there is a positive cost-benefit ratio of 
AmeriCorps to public benefit for every dollar invested.
    We have talked about one example of 10 hours that has been 
found to have been misspent and you have to put that in the 
context of 155 million hours at 1 percent of 1 percent of 155 
million. One percent of 1 percent is over 15,000, so that's not 
enough to call a hearing over.
    I would like to ask Ms. Darling, first of all, how 
sequestration has affected your ability to provide grants to 
eligible responsible applicants?
    Ms. Darling. Thank you for that question, Congressman. When 
we see reduced funding, we may not be able to fund the same 
number of AmeriCorps positions that we had previously or we may 
also take--we may have limitations in some of the program 
dynamics and scope. We try to make sure that we hold the 
members in the programs harmless as much as we can when there 
is indeed a cut.
    Mr. Scott. And have you done an evaluation of the value on 
services for every dollar invested in the program? Because you 
are dealing with the volunteers and matching funds for every 
dollar invested in the program, do you know how much of a 
service is accomplished?
    Ms. Darling. For each of our programs, there is a 
requirement for evaluation and that is commensurate with the 
level of funding that they receive. We are in--we just started 
an evaluation institute in Texas to teach our grantees how to 
evaluate the impact of their programs and calculate that return 
on investment for us, for a $14 million investment in our 
portfolio, over 31 million in matching and in-kind funds, and 
that is separate from the number of hours that they serve.
    Mr. Scott. Thank you. Ms. Jeffrey, you mentioned a 
fraudulent scheme where money ended up in a private account. 
What has happened to the individuals involved?
    Ms. Jeffrey. The individual and the organizations have been 
debarred and CNCS has made a demand for return of the funds.
    Mr. Scott. Were any criminal charges filed?
    Ms. Jeffrey. They were not. I believe it was because the 
amount did not accord with the prosecution thresholds in the 
particular jurisdiction.
    Mr. Scott. How much money was fraudulently diverted?
    Ms. Jeffrey. It was about $20,000. The total grant was 
$131,000.
    Mr. Scott. The way you described it, it appeared to be 
intentionally stealing the money and no criminal charges were 
filed?
    Ms. Jeffrey. That is often the case, that prosecutors elect 
not to file criminal charges, even when they have strong 
evidence of fraud, because they are too busy, they have other 
priorities.
    Mr. Scott. Mr. Chairman.
    Chairman Guthrie. Thank you for yielding back and I 
recognize myself for 5 minutes to ask questions.
    First, to follow up what Mr. Scott said for Ms. Bawden, we 
are talking about whether money is important. So your report 
raises the question about whether the corporation has 
determined whether the corporation has the right people and 
resources in the right place to effectively monitor grantees' 
compliance with the law.
    Some people may argue the corporation needs more money, 
more staff to improve their monitoring, but your report seems 
to indicate that this is not about funding. Is that your 
opinion?
    Ms. Bawden. From GAO's perspective, the question about 
funding is a little bit premature. It's essential that the 
corporation first take steps to understand exactly what staff 
resources they would need to effectively oversee and monitor 
grants as well as sort of how the workload should be broken 
down across their programs. That question needs to be answered 
first before we can think about funding.
    Chairman Guthrie. Okay, thank you. And Ms. Giblin, the GAO 
report concludes the corporation's protocols do not lead to 
appropriate oversight of subgrantees. In fact, this 
subcommittee has held a few hearings over the last few years on 
problems with subgrantees and I believe those hearings always 
highlighted the challenges the corporation has in effectively 
monitoring for compliance with the law.
    Your report released just last week demonstrates monitoring 
of subgrantees' compliance with the law continues to be a 
weakness for the corporation. Taxpayers continue to see their 
money spent inappropriately. Can you give us a timeline when 
you would expect you could come back before this committee and 
tell us if all these challenges are truly behind you?
    Ms. Giblin. Thank you for that question. First, I'd like to 
say that CNCS, like other Federal grant programs, complies with 
the laws and the regulations governing oversight and monitoring 
in that we provide monitoring over the direct grant funds that 
we provide to grantees.
    In addition, we work closely with those grantees, 
especially if they are forwarding those funds to sub-
recipients, to ensure that their monitoring tools are effective 
and efficient. We are working over the coming year to 
incorporate many of the GAO recommendations to ensure that we 
have a more robust risk analysis that incorporates all four 
aspects of basic risk category and we'll ensure that we 
complete this work within the next 12 months.
    Chairman Guthrie. Thank you. So within the next 12 months. 
Ms. Jeffrey, the corporation oversees $750 million in taxpayer 
funds to support multiyear grants in several different programs 
that provide funding to more than 346,000 participants.
    The GAO report notes the process the corporation takes to 
assist their grantees creates ``vulnerabilities for the 
corporation in its ability to meet Federal standards for 
internal control with respect to risk assessment, control 
activities, and monitoring principles.''
    In thinking about this and your previous work looking at 
the corporation, can you tell us whether you believe that 
taxpayers' money is appropriately safeguarded and used within 
the requirements of the law?
    Ms. Jeffrey. As Acting Director Bawden stated a moment ago, 
I think there are serious vulnerabilities. The corporation does 
not have in place good systems and good mechanisms to ensure 
that taxpayer dollars are used appropriately and that funds are 
safeguarded, but the entire notion of a risk-based grant-
monitoring program is intended to improve that.
    Right now, the corporation is too reliant on the honor 
system and that's just not an effective internal control.
    Chairman Guthrie. Thank you. And I have completed the 
questions I had prepared, so I will yield back and I will 
recognize Ms. Davis 5 minutes for questions. Ranking Member.
    Mrs. Davis. Thank you, Mr. Chairman and Inspector General 
Jeffrey. If I could follow up with that because I think we 
obviously are seeing the chief risk officer, who has spoken 
here, as well as other changes based on the recommendation. So 
I wonder if you could--I heard what you just said, but I am 
wondering, are they on a path that you believe is going to 
address these concerns and what other specific recommendations 
would you give?
    Ms. Jeffrey. For the first time that I've seen, I think the 
corporation has built for itself the capacity to tackle these 
challenges, the capacity to review the way in which it 
monitors, to understand its risks, to create monitoring that 
will truly target those risks in an efficient fashion.
    That may require a different workforce. It may require a 
different structure to some of the programs and the matter in 
which they are overseen. I think they are at the very beginning 
of the right path.
    Mrs. Davis. If you look at the funding and the possibility 
that funding could be cut fairly dramatically, if not all 
together, I am wondering when you talk about the people who are 
overseeing this, is it the level of education, the skillset? Is 
it the idea? And I am looking at our panel and I am delighted 
to see that so many women are involved in this, but I also know 
sometimes that there is a sense that there are volunteers in 
some people's eyes, perhaps, the level of--their work product 
is not something that we would see necessarily at a corporate 
level and yet it sounds like it should be. So where is that 
issue? And is it, in some ways, it is then a matter of funding 
and the ability to hire the very best in order to make this 
work and to acknowledge the role that the great, great 
percentage of people are contributing to their communities?
    Ms. Jeffrey. In a resource constrained environment, an 
agency needs to work smarter. There is a limit to how much 
harder you can expect people to work, but they can work 
smarter.
    CNCS, as it currently monitors risks, doesn't concentrate 
its resources where the strongest risks are. I think it needs 
to understand that and make decisions about what risks it wants 
to focus on and how best to monitor them to make the greatest 
possible use of its existing staff. Some of that may require 
reconfiguring the workforce or building different skillsets, 
but I don't think it's the size of the staff that is the 
barrier here.
    Mrs. Davis. Not size, but perhaps the ability to work in 
that environment. And, Ms. Giblin, could you speak to that as 
well in terms of resources and, again, what we are looking for 
in terms of the individuals who are heading up those kinds of 
organizations?
    Ms. Giblin. Well, first, let me share with you that with 
regard to resources, the CNCS management team has made a 
concerted commitment to risk management at the organization 
ensuring that I have the resources that I need to effectively 
manage the risk and the five components that we oversee.
    In addition to the staff that we've been able to hire, we 
are expediting our reviews in the most critical areas, by 
augmenting with industry leaders in the areas of internal 
controls and grant risk assessment. But I agree that internal 
controls in any organization need to be both effective and 
efficient, and efficiency is what should drive the work in an 
organization that has limited resources. And I look to partner 
and employ the recommendations provided by GAO to ensure that 
we were able to do that.
    Mrs. Davis. Maybe, Ms. Darling, could you just respond to 
that as well because obviously you are in a position that 
really sees a great deal and knows how things are working?
    Ms. Darling. I think managing these large programs is a 
challenge and I think it's not a matter of who is exactly at 
the helm, but the skillset that each leader has. Organizational 
effectiveness is all about, I think, structuring the right 
people in the right positions in order to leverage a workforce 
that has limited resources.
    At OneStar Foundation, we have made a choice to limit the 
number of grantees that we have. We may grow our programs, but 
we only have 26 programs, but more boots on the ground so that 
our grants and program officers will have a set number of 
monitors and monitoring and risk assessments to make. So that's 
one way that we make sure we are using our limited resources 
effectively.
    Mrs. Davis. Thank you. And I think I was hearing from 
everyone that you believe that it is very important to manage 
those risks, but that there is great benefit as well?
    Ms. Darling. Oh, absolutely.
    Mrs. Davis. Thank you.
    Ms. Darling. Thank you.
    Chairman Guthrie. Thank you. The gentlelady yields back. 
There is a competing meeting going on with some Republican 
members, so if it's okay with you, we can go out of order and 
to recognize Mr. Courtney since we have kind of an imbalance on 
this. So Mr. Courtney, you are recognized for 5 minutes.
    Mr. Courtney. Thank you, Mr. Chairman, and I appreciate 
again your courtesy. And I would like to just say that I know 
the chairman; we have served together for a number of years. 
And, you know, the focus of the hearing today, which is about 
trying to make this program operate better. I think you would 
have total, 1000 percent support on both sides of the aisle 
that we need to come up with, whether it is legislative 
initiatives or again, the oversight function as a way of trying 
to make sure that these dollars are spent appropriately. But, 
obviously, we are in a different setting here today, which is 
we have a budget which we submitted today, the Skinny Budget, 
so called, for 2018, which proposes to just completely 
obliterate AmeriCorps. And so I have wanted to spend my 5 
minutes just to focus a little bit in terms of just another 
perspective, which, again, is a picture that I put up, which is 
of a SeniorCorps program, again, organized through AmeriCorps 
up in Eastern Connecticut, which is a veterans coffeehouse 
program.
    Again, the SeniorCorps program has organized three 
different locations. It is the most sort of sparsely populated 
part of Connecticut. And as the picture shows, we have got a 
great contingent up in Norwich, Connecticut, which, again, 
meets on a regular basis.
    Again, it is an opportunity, first of all, to socialize 
because there is a lot of social isolation issues which, again, 
I think AmeriCorps and SeniorCorps identified in the region, 
which is important to try and break through, but also, frankly, 
it is a great opportunity for folks to connect with the VA 
system because it is an opportunity to get speakers. The guy in 
the far right in the picture there is my veterans' caseworker. 
He is a 30-year submarine force veteran, Manuel Menesis, who, 
again, has connected veterans through the coffeehouse program 
with hearing aids, with medical appointments, with disability 
claims, medal recovery.
    Again, there is a value here that I think is also important 
for all of us as members of Congress to recognize that the 
AmeriCorps program which, again, basically has a force 
multiplier that costs the taxpayer virtually nothing with 
volunteers to organize these types of events.
    So Mr. Chairman, I have five actually recent articles 
talking about the great success that SeniorCorps has 
accomplished and it is a program which, frankly, is now being 
emulated in other parts of the country. My Republican 
predecessor, Rob Simmons, who is a colonel in the Army and 
served in Vietnam, is quoted in one of the stories, talking 
again about the great work that these coffeehouses are being 
done.
    And again, we are in a place right now where a budget 
proposal could just completely and totally eviscerate this type 
of, I think, positive, very efficient use of taxpayer dollars. 
So, Ms. Darling, in your testimony, you again sort of cited 
some of the great success that SeniorCorps in particular is 
doing in Texas, so I was just wondering if you could sort of 
talk about that in terms of, again, the larger picture here 
about what we are talking about.
    Ms. Darling. I think we all know that effective use of 
taxpayer money is important. And in Texas, we certainly know 
that government can't do it all and government partners with 
nonprofits to get their work done, but we have seen AmeriCorps 
and SeniorCorps volunteers work alongside those nonprofit 
organizations and actually expand their reach and to be able to 
do things that they could not otherwise do.
    Of course, disaster response is one of the largest areas. 
The State of Texas is the most disaster-prone State in the 
country, according to FEMA. If it weren't for SeniorCorps 
volunteers, the recovery after the fertilizer explosion in West 
would have been seriously hampered. There was nothing left, but 
SeniorCorps volunteers living in the community knew how to 
mobilize and how to set up volunteer reception centers and then 
manage more volunteers in order to help the residents begin to 
rebuild.
    We've seen the same across the State with mentoring and 
tutoring programs. Communities in Schools, College Forward, 
Teach For America are all AmeriCorps members. If it weren't for 
them, these organizations that many of us support but may not 
recognize as AmeriCorps programs are able to serve far fewer 
young people and they do provide a consistent presence in the 
lives of the children they tutor and mentor and make a 
tremendous difference in our state.
    Mr. Courtney. Thank you. And again, Mr. Chairman, as I 
said, I think we are all prepared to help you in the effort to 
try to make this program work as effectively as possible. But, 
again, we do not want to throw the baby out with the bathwater, 
so I would just again ask for permission to submit the articles 
regarding the veterans coffeehouse.
    Chairman Guthrie. Without objection, so ordered.
    Mr. Courtney. And I yield back.
    Chairman Guthrie. Thank you. Thank you for yielding. I now 
recognize Mr. Thompson for 5 minutes for questions.
    Mr. Thompson. Chairman, thank you and thank you for this 
hearing. This is an important topic and I think that we are 
exercising our oversight responsibilities in doing that because 
nothing sanitizes better than sunlight, so having a hearing and 
being able to talk about these issues. And let me just say, I 
have watched great results of the programs that we are talking 
about.
    Am I impacting the folks in my congressional district? I 
have a friend, Melissa McHugh, that is an AmeriCorps employee. 
She actually works with the intermediate unit. She is 
responsible for all over Pennsylvania, spreading the good news 
on Raise.me. If you do not know what that is, look it up. It is 
an incredible program and Melissa is doing a great job of 
really reaching out to kids to help them plan for their higher 
education.
    That said, though, I heard my colleague say though it is 
not that much money and everything is hunky dory. Well, they 
did not use those words, but kind of we do have a 
responsibility. We have a fiduciary responsibility. I have a 
responsibility to the 2,824 participants in my congressional 
district in this program, make sure we are getting it right and 
to all the more than 730,000 taxpayers that we are getting it 
right.
    And someone said we are not spending that much money, I 
have to tell you that program is in the 5th District based on 
one report here, they total, if you add in potential 
educational awards to AmeriCorps members, it is almost $3 
million in just my congressional district. That is a chunk of 
change and I think we have a fiduciary responsibility to make 
sure that we are getting it right for everybody, for all 
involved.
    So my first question, Ms. Giblin--first of all, thank you 
for your leadership and dedication to improving the operations 
of the corporation. What would you say your main challenge is 
when it comes to assessing or reporting improper payments? And 
in your opinion, why has it taken the corporation so much time, 
so long to work towards a system of accurate reporting?
    Ms. Giblin. Thank you for that. I think one of the main 
challenges we did experience in past years was staffing 
resources dedicated to our improper payment testing and, quite 
frankly, identifying an alternative sampling methodology with 
which we can instill confidence in OMB that our reporting would 
be robust. And I am happy to say that I am ahead of schedule in 
developing an alternative sampling methodology with the Office 
of Management and Budget and hoping to submit my request for 
such a methodology within the coming days, 30 days ahead of 
schedule from when I am required to submit that. I was able to 
bring on additional staff who have specific expertise in 
sampling the improper payments, according to improper payments 
regulations on to my team, and I am looking forward to rolling 
this testing methodology out this year and reporting with 
confidence the results of the end-of-year of assessment in our 
annual financial report.
    Mr. Thompson. Well, thank you for your leadership and thank 
you for bringing what I would describe as that discipline to 
our accountability process because we do need to get right.
    Ms. Jeffrey, in your testimony you described instances 
where individuals with dangerous criminal records were 
participating in and being compensated for their service and 
various programs, volunteer programs specifically. You stated 
that this program this problem was far from resolved, which is 
rather frightening. In your experiences as inspector general, 
is this a widespread problem across similarly structured 
organizations or is this issue unique in nature, and what is 
the main reason for this to occur? Is it a lack of awareness, 
lack of resources, lack of accountability, or something 
different?
    Ms. Giblin. To me this is an issue of priority. In all too 
many of our grantees, they leave the criminal history checking, 
which requires some detail orientation and some care, to low-
level administrative staff. They treat it like it's a routine 
administrative regulatory requirement and not a critical safety 
measure, and it doesn't get supervised by the senior leadership 
in some of our grantees. I think we need to elevate its 
importance and it needs to be treated as a make or break 
activity.
    Mr. Thompson. Thank you very much. Chairman, my time is 
waning so I'll yield back.
    Chairman Guthrie. I thank the gentleman for yielding and I 
recognize Ms. Adams for 5 minutes for questions.
    Ms. Adams. Thank you, Mr. Chairman and Ranking Member 
Davis, for the opportunity to discuss the immense value that 
the Corporation for National and Community Service plays in 
communities across the country, and I want to thank all the 
witnesses for your testimony and your experiences with working 
with CNCS.
    In the 12th District of North Carolina that I represent, 
CNCS and the volunteers they empower make a significant mark. 
Volunteers help serve food and supports to 500 homeless 
individuals daily. AmeriCorps VISTA volunteers have developed, 
implemented, and expanded programs to help provide homeless 
individuals with skills and training. AmeriCorps members serve 
in a variety of capacities in public schools across Charlotte, 
providing important support to students and teachers.
    And further, CNCS provides over 140 teachers single 
education awards and loan deferment as they work in classrooms, 
impacting thousands of students in low-income schools. I know 
that the 12th District of North Carolina feels the benefits of 
CNCS on a daily basis, yet the President's budget proposes 
eliminating funding for CNCS, stripping communities of these 
critical services. Cutting educational funding, research, and 
service is not putting America first. It's putting America 
last.
    My first question, Ms. Darling, for every $10 CNCS provides 
States, States are able to leverage $15 from private funders. 
As former COO of CNCS, without the Federal investment in 
national service, do you think that Americans will have the 
opportunity to engage in meaningful service at this scale?
    Ms. Darling. Thank you for that question. I do not believe 
they would be able to participate in meaningful service at the 
scale that the corporation allows because there is a structure 
that allows for the recruitment and training and management of 
thousands of volunteers beyond just each AmeriCorps member's 
year of service.
    Ms. Adams. Is that private-public partnership helpful for 
States and would States be able to leverage that much funding 
without the CNCS grants?
    Ms. Darling. It is my opinion that States would not be able 
to leverage that additional funding for where would it come 
from if it were not from private philanthropic dollars? And the 
beauty of the AmeriCorps program is that when these Federal 
dollars go to grantees, our subgrantees, for example, 
Communities in Schools is a popular one, they are then able to 
use the AmeriCorps presence to get additional philanthropic 
dollars because it's a recognized investment and absolutely 
makes a difference to their bottom line.
    Ms. Adams. Thank you. What are some of the benefits that 
you have experienced with this model both during your time as 
COO and on the State Service Board of Texas?
    Ms. Darling. Well, I can speak particularly to my service 
at OneStar National Service Commission. We could not even begin 
to make a dent in the issues related to children at risk and 
those that are performing below grade level in just the city of 
Austin in Travis County without AmeriCorps members in at least 
32 schools working with children. It's an early childhood 
intervention that teachers do not have time to do by themselves 
that allows a resource that, frankly, for not--if not for our 
funding of those programs, we would have outcomes for our 
children that are far less than what we would like.
    Ms. Adams. So in your opinion, budget cuts would 
drastically impact the ability to be responsive?
    Ms. Darling. Absolutely.
    Ms. Adams. Thank you very much. Mr. Chair, I yield back.
    Chairman Guthrie. I thank the lady for yielding and I now 
recognize Mr. Grothman from Wisconsin for 5 minutes for 
questions.
    Mr. Grothman. Ms. Giblin, first of all, how many people 
work for your organization overseeing these programs?
    Ms. Giblin. The staff within the Office of the Chief Risk 
Officer comprises 17 individuals.
    Mr. Grothman. Pardon?
    Ms. Giblin. Seventeen staff are in OCRO.
    Mr. Grothman. Okay. A lot of times, all these things, you 
know, you are giving out these grants. When I was involved with 
organizations in the past that give out grants or that live on 
grants, they spend an awful lot of time applying for the 
grants, I mean, just kind of a scary amount of time, not really 
getting their mission done. Did you ever look into see how much 
time is spent in your organization that you are giving grants 
to or their subgrantees? Is that a concern?
    Ms. Giblin. Is the question have we researched the amount 
of time it takes our grantees to complete a grant application?
    Mr. Grothman. Right, that sort of thing.
    Ms. Giblin. My office does not analyze that.
    Mr. Grothman. Okay, with regard to AmeriCorps, how much are 
people making to work for AmeriCorps?
    Ms. Giblin. I don't have the specific dollar amounts, but 
it is a nominal living allowance.
    Mr. Grothman. What is a nominal living allowance?
    Ms. Giblin. In the range of--depending on if it's full-
time, part-time service, no more than $500 a month.
    Mr. Grothman. Okay, and do you have anybody managing the 
program full time?
    Ms. Giblin. The AmeriCorps program within the CNCS 
headquarters is managed with a robust staff that is full-time. 
These grantees are managed by individuals that are dedicated to 
the oversight of the CNCS AmeriCorps grant on the ground within 
the grantee itself.
    Mr. Grothman. How much are those people making?
    Ms. Giblin. I don't have that figure in front of me. I can 
provide that at a later time.
    Mr. Grothman. Are they making six figures?
    Ms. Giblin. I couldn't estimate.
    Mr. Grothman. Okay. Ms. Bawden, your report says the 
corporation conducts limited monitoring of grantee oversight of 
your subgrantees. What concerns do you have with the limited 
nature of the current subgrantee oversight protocol and do you 
believe the corporation's current system leaves taxpayer 
dollars at risk?
    Ms. Bawden. With respect to the subgrantees, what we found 
is that the corporation collects limited information across 
programs, on how its grantees are overseeing subrecipients, 
particularly with respect to criminal history checks, and we 
recommended that the corporation collect more information to 
assure itself that those criminal history checks were being 
consistently conducted.
    Mr. Grothman. Okay, percentage-wise, how many of the 
dollars do you think are really spent by the grantees and how 
many by the subgrantees? Do you know that?
    Ms. Bawden. In fiscal year 2015 about half of the grant 
awards were passed through the subrecipients.
    Mr. Grothman. Okay, Ms. Giblin, we will ask you again. As 
part of the review, the General Accounting Office requested a 
list of 2015 grantees from the corporation and you guys wound 
up providing 3 grants ranging from 2,477 to 2,807 
organizations. That is kind of a big difference in numbers. In 
light of the difference, GAO found your information unreliable. 
The taxpayers trust you to administer $715 million in grants. 
How can you effectively monitor grants if you cannot even 
produce a reliable number, a reliable list of the active grants 
that the corporation is administering, and have you changed the 
procedure since that time?
    Ms. Bawden. The procedures that resulted in the numbers 
that you provided really are based on the IT system, the 
antiquated IT system that we had been relying on for that 
information.
    I am happy to report that the agency is undergoing a 
complete IT modernization effort that will provide us with a 
platform that is known in the private and the public sector for 
its robust data analytics, and we'll be able to provide more 
reliable data going forward.
    Mr. Grothman. I guess I would think even if we did not have 
computers, you would know how many grants were going out, but 
do you know how many grants are going out now since this 
request was made?
    Ms. Bawden. On average we manage a grant portfolio of about 
3,000 grants.
    Mr. Grothman. Okay, so more than any of the numbers that 
you gave us in the past?
    Ms. Bawden. The information that GAO provided comprised 
those grants that were received as an assessment. We do our 
assessment in the summer of each year. Grants are fully awarded 
by September 30th, so the number will fluctuate.
    Mr. Grothman. Okay, and what are the dollar amounts from 
the grants? What are the lowest grants?
    Ms. Bawden. Grants range from 40,000 to the millions.
    Mr. Grothman. Okay, $40,000. I always kind of wondered 
about, that's the type of small grant I have wondered about 
given the time it takes to process it, the time it takes for 
you to monitor, do you think it is worthwhile for you to get 
involved in a $40,000 grant?
    Ms. Bawden. Again, as I shared with the committee earlier 
that a proper internal control framework for any organization, 
whether it's the Federal entity or a grantee with whom we 
invest, should be both effective and efficient, and efficiency 
should drive--
    Mr. Grothman. I have one more quick question. One more 
quick question?
    Chairman Guthrie. Really quick.
    Mr. Grothman. Okay. As you know, we are very broke in this 
Federal Government and sometimes people focus on what is the 
Federal Government's purpose and is it under our Constitution 
something that the Federal Government should do? It seems to me 
that this is such a wide open program, covering so many 
different things, it is like we just gave you a bunch of money 
and said find something to do with it.
    How do you justify the Federal Government, at a time when 
we are so broke, just giving out grants kind of to anybody 
under the sun? Does that ever bother you? Don't you think it 
should be perhaps something handled more appropriately at the 
local level?
    Chairman Guthrie. Real quick, a 5-second answer.
    Ms. Bawden. We invest heavily in the communities that 
Congress has mandated that we work in. Many of them are 
distressed, serving some of the hardest and most difficult to 
serve populations, and so an investment in this organization is 
actually an investment in the communities in which all of us 
serve.
    Chairman Guthrie. Thank you. I am going to have to switch 
from here, so I thank the gentleman for yielding back. And I'll 
now recognize Mr. Sablan, 5 minutes for questions.
    Mr. Sablan. Thank you very much, Mr. Chairman. And, Ms. 
Giblin, I liked your last statement that you work in distressed 
locations. And I must confess that any program whose mission is 
to improve lives, strengthen communities, and foster civic 
engagement through service and volunteering is a program I 
like. And the Corporation for National and Community Service is 
active in my district, in the Northern Mariana Islands, 
providing valuable community service for many years now. Our 
public school system has been a regular beneficiary of 
AmeriCorps grants that fund that help dozens of high school 
students, provide tutoring and mentoring services to at-risk 
elementary and middle school students every year.
    The student volunteers also support teachers and other 
students in implementing quality service learning projects to 
meet unmet needs in the community.
    The program members reap many benefits, I must agree, 
including professional on-the-job experience and a little bit 
of money, funds, to help pay for college. We are very poor 
people and the knowledge of knowing that they are making a 
positive impact in the lives of others.
    In August of 2015, the Northern Marianas were struck by a 
devastating typhoon, causing widespread damage the likes that 
most of us have never seen. It destroyed the homes of thousands 
of residents, leaving the main island of Saipan without 
electricity and running water for months afterwards.
    We continue to rebuild to this day and services provided 
through AmeriCorps has proven to be an indispensable part of 
the recovery effort.
    The AmeriCorps VISTA project, through carried out social 
services, supports post disaster recovery and resiliency 
efforts. Together with the local commonwealth advocates for 
recovery efforts, CARE, AmeriCorps' VISTA members are 
addressing the long-term recovery needs of many residents and 
have helped provide safe and secure housing for over 350 
families.
    These AmeriCorps VISTA members have served over 3,000 
volunteer hours, leveraged more than 110,000 of in-kind 
resources, and raised $300,000 in financial resources. They 
have also worked to assess the Island's available food programs 
to design and implement a sustainable food bank.
    AmeriCorps and AmeriCorps VISTA members have proven to be 
an integral part of our island community, in our schools and in 
our homes. It has been shown that for every $10 in Federal 
funds appropriated, CNCS grants have raised$15 from private 
sources, the very essence of a successful private-public 
partnership that our friends in the majority like to commend. 
And I know that there are problems, but we are not shooting for 
perfect here. We are trying to find the good, I must say, as it 
has been said this past week or so about another program. So 
instead of eliminating the CNCS as the President proposed, this 
Congress should provide robust funding for these valuable 
services.
    Ms. Darling, I think the Committee Ranking Member Bobby 
Scott alluded to in one of his questions the President's 
recently released budget and how it eliminates entirely the 
Corporation for National and Community Service. I sincerely 
hope that does not happen, but even reductions, and he says 
sequestration, in funding can have serious effects. How will 
budget cuts affect the ability of CNCS to be responsive to 
needs on the ground?
    Ms. Darling. We look to CNCS to participate in their robust 
trainings and avail ourselves of resources that they have 
online and with our program and grants officers. We have a very 
close relationship with them because they are our funder and we 
are their grantee. We, in turn, use those tools with our 
subgrantees in order to manage risk assessment and monitoring 
programs so that we can have programs that have impact and 
outcomes.
    Mr. Sablan. Okay, thank you. I am going to go and risk--my 
staff hates me for doing this at times, but I am going to risk 
and I am going to ask a question of Dr. Jeffrey, inspector 
general. Do you find enough reasons or causes or findings in 
your opinion because what you have, you issue opinions, do you 
find enough reason in your opinion to close the program 
entirely? Yes or no?
    Ms. Jeffrey. It's not appropriate for an IG to weigh in 
or--
    Mr. Sablan. I am asking you, you are here as a witness, I 
am asking you yes or no.
    Ms. Jeffrey. That is simply not a question that's 
appropriate for me to address.
    Mr. Sablan. But you do issue opinions?
    Ms. Jeffrey. We issue reports.
    Mr. Sablan. You issue reports that are based on your 
opinions.
    Ms. Jeffrey. We issue reports--
    Mr. Sablan. Even licensed accountants acknowledge that they 
issue opinions.
    Ms. Jeffrey. We issue reports that are based on 
investigations and audits. They are not based on opinions.
    Mr. Sablan. Thank you.
    Chairman Guthrie. I let that run over a little bit to try 
to get balance back, so let us try to stick to the 5 minutes 
just to be fair since we went over a little bit on one. Okay, 
now Mr. Mitchell, you are recognized for 5 minutes for 
questions. We'll try to stick to the 5.
    Mr. Mitchell. Thank you, Mr. Chair. Ms. Jeffrey, the 
chairman highlighted some of the background check issues that 
you have identified that, in fact, despite the requirements and 
training, self-assessments and all kinds of activities you have 
taken, the failure to complete background checks adequately is 
extraordinary. Twenty-two percent of AmeriCorps and State 
programs, the national program failed background checks; they 
didn't have them; 36 percent in the foster grandparent program; 
40 percent in the senior companion program; and 41 percent in 
retired seniors volunteer program.
    I have to say, you know, I spent 10 years coaching youth 
hockey and USA hockey had a pretty simple requirement. You had 
to do a criminal background check before you set your foot in 
the ice or the locker room. Lacking that, you did not coach. It 
did not seem to be tricky and had about 100 percent compliance 
because the insurance would say they could not cover them.
    So could you tell me why it is so hard and what we do about 
it? Because that is a pretty fundamental issue. You have got 
people that are with children that 36 percent of them did not 
clear criminal background checks. What are we doing about that?
    Ms. Jeffrey. Let me be clear, it's not that 36 percent 
didn't clear a background check. It's that complete background 
checks were not performed.
    Mr. Mitchell. Thank you.
    Ms. Jeffrey. Or not performed timely on 36 percent. So the 
public is exposed to a great risk.
    Mr. Mitchell. Sure.
    Ms. Jeffrey. By interacting with people whose background 
checks are unknown. To me, the biggest concern is that CNCS's 
enforcement mechanism does not seem well designed to tell 
grantees you must make this a priority. The system of fines 
that are imposed are simply too small to make a difference. If 
you had a teenager who was driving recklessly, you would not 
take away 1 percent of his allowance.
    Mr. Mitchell. I would take away the car, thank you very 
much. I guess that leads me to the next question. It is not a 
1-year phenomenon; this has been a multiyear phenomenon with 
some of these agencies, yet they continue in their existence 
despite their failures.
    Ms. Jeffrey. This is ongoing. I think for a very long time, 
the corporation did not realize or did not acknowledge that 
they had a comprehensive problem. It was only when they were 
required to undertake improper payments testing that, that 
testing as a byproduct revealed the extent of this criminal 
history checking problem. And since then, the corporation has 
been sort of doing the same thing and hoping for a better 
response. We will provide better education, we will do more 
training, we will give you a chance to come into compliance, 
and an amnesty, and then hope that you'll do better going 
forward. The problem is that those interventions don't seem to 
have worked or they haven't worked enough.
    Mr. Mitchell. I guess I have a concern that we are going to 
give you a chance to come into compliance when you are talking 
about the foster grandparents program, for example. How many 
chances are you going to give them? How many chances are we 
going to take with children when you have failures to complete? 
Ms. Giblin, why don't you weigh in here because I am concerned 
with how many chances are we going to give them?
    I have a 6-year-old. If they were involved, how many 
chances are we going to give them?
    Ms. Giblin. I appreciate your concern and I, too, am a 
parent who has these concerns. In the 6 months that this 
program has been under my purview, we have already doubled the 
disallowed costs to better align it with the priority that we 
give this program.
    Mr. Mitchell. Let me stop you. What is the disallowed cost?
    Ms. Giblin. The amount that we would be charge for--
    Mr. Mitchell. How much is that?
    Ms. Giblin. It ranges anywhere from $250 to $1,500.
    Mr. Mitchell. To how much?
    Ms. Giblin. Two hundred and fifty to fifteen hundred 
dollars.
    Mr. Mitchell. Now, if I did a quick poll in the audience 
here of anybody in this group and said, now, we are going to 
penalize this out for $250 to $1,500 if this person does not 
have the criminal background check completed, does that concern 
you if they are interacting with your children, what do you 
think the response would be in this audience? What would your 
response be? Are you happy with that?
    Ms. Giblin. Thank you for that. My response, more notably, 
would be that, again, in the 6 months that I've had this 
program, I've already worked with management on developing a--
    Mr. Mitchell. All due respect, Ms. Giblin, that does not 
answer my question. My question is, are you satisfied with that 
as a parent?
    Ms. Giblin. I am committed to ensuring that this these 
disallowed costs align with the agency's priorities for this 
program.
    Mr. Mitchell. Why would we allow that to continue multiple 
years? I mean, this is a pretty fundamental thing if these 
people are involved, vulnerable populations. Why do we allow 
that to happen year over year and not simply say we need 
someone that is going to do the job properly? Why would we do 
that?
    Ms. Giblin. Most notably, I think what we are doing right 
now is identifying the root causes for the noncompliance to 
ensure that our grantees have the tools necessary.
    Mr. Mitchell. How about the root causes? If they are not 
running very professionally, we should find someone that is.
    Ms. Giblin. For a number of our grantees, they can't even 
access the State repository checks that are required to 
complete a final check.
    Mr. Mitchell. All due respect, my oldest son is a police 
officer and it is not that hard to complete a criminal 
background check, and I had to do one every year, so that is an 
excuse. You know the difference between an excuse and a 
problem? A problem comes with possible solutions; an excuse is 
a justification for the status quo. It is not acceptable. It 
puts children and vulnerable people at risk and that ought to 
be a fundamental requirement of the program.
    I yield back. Thank you, sir.
    Chairman Guthrie. Thank you. Thank you for yielding. I now 
recognize Mr. Takano for 5 minutes for questions.
    Mr. Takano. Yes, I do want my friends on the other side of 
the aisle to understand that this member does take the 
committee's oversight rule very seriously, so I think when 
there is an agency that is not performing as well as we like 
and the inspector general has raised, I think, some serious 
issues, and Ms. Giblin is trying to respond to those--you came 
on to the job just 6 months ago, is that correct?
    Ms. Giblin. The CHC program was given to me as part of my 
management responsibility about 6 months ago.
    Mr. Takano. So the risk management, managing the risk. So 
my colleague from Pennsylvania gets $3 million worth of 
services through this agency and I think about a million to my 
agency, about 88 AmeriCorps programs. I did not quite hear, and 
I do not want to be unfair to him, I did not hear him conclude 
that he, therefore, wants to see the entire program zeroed out 
because of the concerns raised. I mean, $3 million is an awful 
lot. I mean, it is three times as much as my district. And I 
certainly hope that none of my programs are suffering from some 
of these issues and I do hope, Ms. Giblin, that we are going to 
get the service programs on track and it sounds like--but it 
has been a 20-year program, but I wonder if there might be some 
fundamental issue with the design.
    The design of the program was to allow for maximum 
flexibility and I know that Republicans--and this is not a bad 
thing--I am not trying to cast dispersions, but they did insist 
that very minimal contact with the Federal agency and 
individual volunteers. There is a whole series of 
intermediaries, whether it is a State grantee, a State 
organization that is appointed by the governor. So there is a 
Federal system involved here and they wanted it was designed 
for maximum flexibility at the local level. Is that not 
correct, Ms. Jeffrey?
    Ms. Jeffrey. I'm glad you asked that question because I 
think it points at one of the challenges. So much of the 
oversight, particularly in the AmeriCorps program, is performed 
by the State service commissions, the 52 that exist throughout 
the United States. Some of them do a great job of oversight of 
their grantees, others do not. And the difficulty is that CNCS 
doesn't always have good visibility into who is doing a great 
job and who really needs to do better. The problem is that we 
can't be sure that tiered oversight is actually working 
effectively.
    Mr. Takano. So the federalized nature of how this bill was 
designed, oversight might not have been thought through very 
carefully and the Federal agency might not have been very clear 
about what a task it is to oversee all these State agencies.
    Ms. Jeffrey. I'm not sure that's correct.
    Mr. Takano. Okay.
    Ms. Jeffrey. I think the agency has been fairly clear that 
it--what it expects the commissions to do. It doesn't always do 
a good job of knowing whether they're doing what they're 
expected to do.
    Mr. Takano. Is there--
    Ms. Jeffrey. And beyond that--
    Mr. Takano. Is there an authority problem? Is there a 
leverage problem with being able to get these State agencies to 
kind of take these concerns seriously?
    Ms. Jeffrey. I don't know whether I'd call it a leverage 
problem. I think there is an accountability problem with the 
willingness to hold the States accountable. I think some of 
these risks are such that they ought to be monitored directly. 
While the statute contemplates a system of tiered oversight, 
there is nothing in the statute that would prevent CNCS from 
monitoring directly which grantees and which subgrantees are 
complying with proper criminal history checking.
    Mr. Takano. Well, my general sense, after listening, and I 
am listening to all sides here, my own opinion is that I would 
hate to see this, as one member said, throw the baby out with 
the bathwater. I, too, could read testimonials from people in 
my district about the great things that have happened here. The 
gentleman from Pennsylvania, also, in fairness, recounted great 
things that were happening in his district. He told a story 
about that.
    So my sense is that I would hate to see us zero this 
program completely out. I would like to get the accountability 
right and if we could take a deeper dive into that rather than 
have this be a kind of all of us telling the great stories and 
then--and I don't hear members on the Republican side uniformly 
saying that we--that they agree with zeroing this out. So my 
hope is that we can get the accountability correct. And I thank 
the inspector general for her hard work.
    Chairman Guthrie. Thank you. I thank the gentleman for 
yielding back and now recognize Mr. Lewis for 5 minutes for 
questions.
    Mr. Lewis. I would like to thank the chair. Ms. Giblin, I 
want to start with you. You said a moment ago that you thought 
the grants amounted to around $500 a month. You were guessing, 
you didn't have the figures in front of you on some of these.
    Ms. Giblin. Exactly.
    Mr. Lewis. 1993, as I understand it, AmeriCorps combined 
VISTA and NCCC, correct? And that was one of the provisions of 
the 1993 law?
    Ms. Giblin. I'm sorry, I don't understand.
    Mr. Lewis. In 1993, AmeriCorps brought together VISTA and 
NCCC, correct?
    Ms. Giblin. That's correct.
    Mr. Lewis. All right. And if you take a look at the grant 
specifically with some of these programs, especially 
AmeriCorps, you thought they were around $500 a month. I have 
got data here that shows the grant set about $11,800 per year 
plus a $5,300 stipend for education.
    Ms. Giblin. The amount I was estimating was just the 
monthly stipend. You are right that they also receive an 
additional education award.
    Mr. Lewis. But you are at $500 a month and I have got them 
higher. Can we look into that and get an actual number?
    Ms. Giblin. We can.
    Mr. Lewis. Because if you add up the educational stipend 
and $11,800, you are looking at $17,000 a year for community 
service. You are not going to get rich off that, but it is not 
$500 a month.
    I want to go into an area here that I do not think we have 
touched on and, and frankly, I do not know that there is really 
good information, so I genuinely ask this question. And that is 
there have been--oh, by the way, one more thing on the funds. 
The Office of the Inspector General did find out that the 
National Civilian Community Corps cost taxpayers 4 to 8 times 
more money and that the NCCC members' 10 months of service cost 
$29,674.
    Ms. Giblin. The cost associated with the NCCC program is 
vastly different than that of AmeriCorps or SeniorCorps.
    Mr. Lewis. But those figures, that number is not obviously 
monthly stipends. That is the cost to administer the program 
and everything.
    Ms. Giblin. Yes.
    Mr. Lewis. All right.
    Ms. Giblin. It is a residential program, to be clear.
    Mr. Lewis. All right. And that is what has been alluded in 
some areas of the media and I am not certain they are true. I 
am genuinely asking the question of you and the Honorable Ms. 
Jeffrey as well, and that is the political activism associated 
with some of these groups, specifically AmeriCorps and their 
association with groups like ACORN. And, again, I am not trying 
to make political points. I am trying to get to the bottom of 
this.
    We can all quote the famous Jefferson quote about tyranny 
is being forced to fund the propagation of other people's 
ideas. And there is a Supreme Court Finley case, and the 
Solomon case, it said that the Federal Government may rein in 
speech in certain cases if they are funding it, but regardless 
of the legal aspects, just as a matter of policy, why would we 
allow that? I mean, why would we take money from liberals or 
conservatives to fund political activism, if indeed that is 
happening?
    Ms. Giblin. The agency takes a strong position with regard 
to prohibited activities, which is, I believe, what you are 
addressing. We have a multifaceted approach to ensuring that 
our grantees and our members individually understand their 
rules and responsibilities and the rules governing prohibited 
activities. In fact, we are providing a training today and our 
southern regional conference to ensure that everyone 
understands clearly their roles and responsibilities.
    Mr. Lewis. And those roles and responsibilities are what?
    Ms. Giblin. To not engage in prohibited activities.
    Mr. Lewis. To not engage in what?
    Ms. Giblin. Prohibited activities.
    Mr. Lewis. Prohibited activities, including political 
activism?
    Ms. Giblin. It's one of the prohibited activities.
    Mr. Lewis. Ms. Jeffrey?
    Ms. Jeffrey. The law expressly forbids engagement in 
political activism, partisan or nonpartisan, and any form of 
legislative advocacy.
    I know that there were, at some times, concerns about that 
happening. Certainly during my tenure, we have not seen that.
    Mr. Lewis. And what are the penalties for that if someone 
or some group or someone receiving a grant is engaged in that?
    Ms. Jeffrey. That's up to the management when they act on a 
particular investigation.
    Mr. Lewis. And you say you have not seen it recently? Does 
anyone have any evidence to say it has never gone on?
    Ms. Jeffrey. We've received no reports of it occurring. Or 
actually we did receive one report. It turned out to be 
unfounded.
    Mr. Lewis. All right. I yield back my time, thank you.
    Chairman Guthrie. Thank you for yielding. I now recognize 
Mr. Espaillat for 5 minutes for questions.
    Mr. Espaillat. Thank you, Mr. Chairman. My question will be 
directed to Elizabeth Darling. There are thousands of 
AmeriCorps members serving in New York City, a number of whom 
serve in my congressional district. They are essential, a 
locally based part of addressing important community needs for 
the most part.
    Next week, April 4th is the Mayor's Day of Recognition for 
national service and nearly 4,000 bipartisan mayors from around 
the country have registered to participate. This is an 
overwhelming display of local support for this particular 
program. I appreciate the critical need for effective 
oversight, but let us not lose the sight of the critical work 
and bipartisan support for national service programs in all our 
States and districts and the leveraging of private resources 
that national service funding enables. For example, in my 
district, the operation of AmeriCorps, which partners with the 
New York City Department of Education and the Henry Street 
Settlement, matches senior companions with homebound seniors, 
desperately rely on their services, so this is critical to the 
district.
    Ms. Darling, coming from the State of Texas, very different 
from New York City, of course, can you talk about how local 
AmeriCorps programs in Texas use national service to engage the 
community, leverage additional private funds, and support key 
local services? What will be the loss in our communities and 
with our locally based organizations if we lose AmeriCorps or 
CNCS?
    Ms. Darling. In Texas, we have 2,400 AmeriCorps members in 
26 current programs. Some serve full time, some part time in 
schools, in mentoring programs, in tutoring programs. They are 
working in the Rio Grande Valley, pairing college students with 
seniors in high school, helping them apply to college, and 
3,300 of 5,000 were recently accepted. We have several programs 
that also mentor those young people in college through college 
completion. It's not just enough to be accepted, but we want 
them to be graduates as well.
    And the same is true at the other end of the spectrum. Many 
programs that are dealing with kindergarten, first grade, and 
second grade, bringing them up to reading level and with very 
effective evidence-based programs. Our Texas Conservation Core 
is absolutely an invaluable resource in the State of Texas, 
working closely with our Division of Emergency Management and 
ready to deploy within hours of any number of disasters. If we 
did not have that resource for the State of Texas to help 
mobilize and train and manage volunteers, set up volunteer 
centers and long-term recovery centers, which long-term 
recovery, as you know, Congressman, goes on for years, we would 
drastically have a different environment within the State of 
Texas.
    And your mention of Mayor and County Day of Service on the 
4th, in Texas last year we had 522 commissioners, mayors, and 
elected officials, judges on both sides of the aisle that 
recognized the service in our State on that day.
    Mr. Espaillat. So these are critical services in education, 
higher education, emergency preparedness that strengthened the 
safety net for thousands, if not millions, of families in the 
State of Texas. We are happy to hear that and I am glad to see 
that the program is yielding some good fruit. And although we 
may face some issues with it, overall it is a good program for 
communities across the United States. And I yield back the 
remaining part of my time, thank you so much.
    Chairman Guthrie. The gentleman yields back. Now please 
recognize the gentleman from Florida, Mr. Rooney, for 5 minutes 
of questioning.
    Mr. Rooney. Thank you, Mr. Chairman. We taxpayers trust 
this Corporation for National and Community Service to 
administer $750 million in some kind of effective and 
accountable manner. In 2015, the GAO requested a list from you 
all of grants that you have done and it ranged from some 2,400 
to over 2,800 by my math and it is not really all that good 
being from Oklahoma and Florida. But that is a 14 percent 
difference, which equates to $100 million out of that $750 
million.
    Now, that is a lot of money and I am curios, Ms. Giblin, if 
you can show us with all that how you can effectively monitor 
grants if you do not even know how many grants you have done 
and where the $100 million might have gone.
    Ms. Giblin. Thank you for that question. As I shared with 
the committee earlier, the difference in numbers that were 
provided to the GAO were with regard to the time that the 
census of grants was taken. Our antiquated IT system that we 
had at the time to help us get that data analytics and get that 
information to GAO is being replaced by a much more robust and 
more fulsome IT modernization effort that is providing us with 
the best-in-class data analytics platform from which we'll be 
able to provide the types of--the numbers that are necessary to 
better assess our grant portfolio.
    Mr. Rooney. So given this $100 million discrepancy, Mrs. 
Bawden and Mrs. Jeffrey, perhaps, do you think that the CNCS 
leaves us at risk? And can you assure us that this money was 
not wasted and that more money had not been wasted?
    Ms. Jeffrey. What you've pointed to is a serious problem 
with data validation inside the corporation. In 2014, a study 
was performed by the Mitre Corporation, and one of the things 
they found was these serious discrepancies between what should 
be identical information in multiple systems. It was not, in 
fact, identical and it led to some of the problems that you've 
identified.
    We've encountered the same problem in our work. What has 
happened over the past year is a very serious scrubbing of the 
data so that as the new system comes online, the data it will 
have will be valid. I don't think that we really have money 
that's missing. I think we are looking at records that are just 
not internally consistent.
    Mr. Rooney. Thank you, ma'am.
    Ms. Bawden. As Ms. Giblin noted, the data that we looked at 
was with respect to how many grants the corporation assessed to 
determine their priority for monitoring and we received some 
inconsistent information with that and that data request. We 
did make a recommendation to ensure that the corporation 
assesses all of the grants it expects to be active in the 
coming fiscal year to make sure that it understands their risk 
and effectively monitors them.
    Mr. Rooney. Thank you. So the inspector general recently 
made it clear that they think the CNCS lacks ``sufficient 
expertise and has not devoted the level of resources necessary 
to detect millions of dollars of improper payments. These 
improper payments are reporting high-dollar overpayments that 
failed to complete a cost-benefit analysis for the receipt of 
payments.'' So, Ms. Giblin, how can you assure us that this 
money is being spent well?
    Ms. Giblin. Again, as I shared earlier that I am working 
closely with the Office of Management and Budget to ensure that 
I have a more robust testing methodology that will be 
implemented this year to ensure that we have the information we 
need to more accurately and report with confidence the improper 
payment rate for the agency. I am also happy to share that I 
have also met with a number of Federal agencies to garner best 
practices in not only the reporting and testing methodologies, 
but in the strategies to address noncompliance.
    Mr. Rooney. Thank you. Have you levied any penalties or 
fines or anything on any of these grantees that have failed to 
do the background checks or have used the untested assumptions 
or have not made sure that the payments that they dispersed 
were proper? Have you penalized those folks any?
    Ms. Giblin. With regard to the annual improper payment 
testing, we do recall any improper payment that we identify and 
disallowed those costs and we are in the process of recovering 
those costs right now. With regard to the CHC program, we do 
have a disallowance policy.
    Mr. Rooney. So do you ban them from future grant 
applications and things like that?
    Ms. Giblin. We work with them closely on a corrective 
action plan and to retrieve disallowed costs. If grantees are 
compliant with a corrective action plan and do repay those 
costs, we are amenable to continue working with the grantee.
    Mr. Rooney. That will never happen in the private sector. 
Thank you, ma'am. I yield my time. Thank you.
    Chairman Guthrie. Gentleman yields back. Now please 
recognize the gentleman from Colorado, Mr. Polis, for 5 
minutes.
    Mr. Polis. We want to thank our witnesses, thank you, Mr. 
Chair. This is the second hearing we have had on the 
Corporation for National and Community Service in the same year 
and I had the opportunity last hearing to share some of the 
good work CNCS is doing to my district.
    Again, I want to highlight some of the work of the agency 
that is near and dear to the heart of my constituents. And as 
many of you know, my State, Colorado, had a state of emergency 
in 2013 after experiencing the most damaging floods in our 
State's history. Several people in my district lost their life, 
hundreds lost their homes and everything they had, and many 
more suffered significant damage.
    Thanks to the CNCS, though, volunteers were deployed to 
Colorado to help in the aftermath of the flood. I got to meet 
and work with and volunteer with many of those volunteers. In 
total, over 700 national service members came to our State and 
their work involved volunteering donations management, staffing 
call centers, coordination of medical mobility rides, community 
relations, meal services, debris removal. I got to see them 
doing all sorts of things.
    My first question for Ms. Darling is can you share more 
about CNCS's work with natural disaster recovery efforts, like 
the floods in Colorado? Because that is an area that a lot of 
people do not know that CNCS is involved with.
    Ms. Darling. Yes, thank you for the opportunity to talk 
about disaster response and AmeriCorps in Texas, and I will 
include SeniorCorps in that as well.
    We have 2,400 members in our portfolio for our commission. 
We expect the majority of them to be trained at some level in 
disaster response and they know--the programs know that we may 
call upon them in times of disaster. We have a dedicated 
disaster core, the Texas Conservation Core, that is trained and 
ready to deploy at any moment. They also have a fee-for-service 
model and were deployed after Hurricane Sandy, after numbers of 
disasters across the country.
    Mr. Polis. Can you name a few of the other disasters that 
they were deployed to help with?
    Ms. Giblin. Well, in the State of Texas, the Memorial Day 
flooding, Halloween flooding on Halloween, two separate 
Halloweens two years apart, the Bastrop fires in 2011; 2013 
fires, wildfire in--May I borrow my notes for a moment ? There 
are so many in Texas.
    Mr. Polis. I want to thank you for that answer. I also want 
to highlight a story from an AmeriCorps member in Fort Collins, 
Colorado, in my district, Alex Grimm. Alex said ``During the 
school day, I work one-on-one with students in grades 
kindergarten through third grade, who are reading below grade 
level. I then work with teachers to administer reading 
interventions that help students to attain their grade level 
reading.'' And Mr. Chairman, I would like to submit Alex 
Grimm's full remarks for the record, if I may.
    Chairman Guthrie. Without objection.
    Mr. Polis. And to me, this kind of investment really helps 
AmeriCorps make an impact on its volunteers, whether they are 
at schools or whether they are doing disaster recovery work, 
which we are just so grateful for when I met the AmeriCorps 
reinforcements during what was really our biggest tragedy and 
natural disaster in my life.
    My next question for Ms. Bawden is in your testimony you 
highlighted GAO's recommendations to improve CNCS and I think 
everybody wants to improve the work. Now, as several of my 
colleagues have mentioned, President Trump's budget actually 
eliminates CNCS. If CNCS were to face significant budget cuts, 
how would that impact your own ability to implement the 
recommendations that are provided in the GAO report?
    Ms. Bawden. Thanks for your question. Several of the 
recommendations that we made seem to be underway and are not 
necessarily resource-intensive, but we did not evaluate the 
cost of implementing the recommendations.
    Mr. Polis. Yeah, and so I think if the goal is to actually 
implement some of those GAO recommendations, we have to be 
cautious about some of the obvious. If the agency is 
eliminated, they will not be able to be implemented, but even 
under severe cuts they will not be able to.
    I also wanted to go to Ms. Darling to highlight, for the 
final minute, work about AmeriCorps' education and programming 
work in schools that you have seen and kind of the impact that 
you have seen that they have on kids.
    Ms. Darling. Thank you for that question. In my oral 
testimony, I talked about a program in the Rio Grande Valley of 
Texas, which is a vastly underresourced area of poverty, 
Colonias along the border. The University of Texas Rio Grande 
Valley has AmeriCorps members that are working with seniors in 
high school and helping them reach college access. Out of 
5,000, 3,300 were accepted to institutions of higher education. 
Those kinds of programs are happening throughout the State, in 
Houston and in Austin, and not just acceptance to college, but 
college completion.
    We know that they are never going to get that far in the 
beginning unless we also help with them, kindergarten, first 
grade, second grade, to help them stay on reading level. And 
our presence in the schools, with Communities in Schools or 
others of our grantees, absolutely augment the resources that 
public education are able to give to these children.
    Mr. Polis. Thank you and I yield back.
    Chairman Guthrie. The gentleman yields back. Now please 
recognize this gentleman from Georgia, Mr. Allen, for 5 minutes 
for questions.
    Mr. Allen. Thank you, Mr. Chairman and the Honorable Ms. 
Jeffrey. In your fiscal year of 2017 Management Challenges 
report you highlight the need for the corporation to commit to 
cultivating a culture of accountability and the progress that 
Office of Grants Management has made towards this goal. 
However, you cite the resistance from staff and grantees still 
entrenched in the prior permissive culture. Can you elaborate 
on what you mean by permissive culture and what reforms you 
believe they need to bring about a culture of accountability to 
the entire corporation?
    Ms. Jeffrey. I think empowering the Office of Grants 
Management has been very important. I will say that over the 
past 6 months, we have seen an increased willingness to 
disallow costs that were improperly incurred. Often, when there 
is a proposal to do that, the program objects and wants to find 
some way to allow those costs. I think empowering the Office of 
Grants Management to be able to say no and to make a final 
decision has been very important.
    Right now, of course, the program heads are political 
appointees and so one major way to change the view of the 
programs towards this is based on who is appointed to lead 
those programs going forward.
    Mr. Allen. So you say this has happened in the last 6 
months that we have been under this empowerment process?
    Ms. Jeffrey. I think it has gone on probably over the last 
year or so, but I think we've really seen the result increasing 
over the past 6 months.
    Mr. Allen. What preempted this process? I mean, what caused 
this to happen?
    Ms. Jeffrey. I think the committee's oversight had a lot to 
do with it.
    Mr. Allen. Okay, all right. So it was questions like this. 
Do you believe that we need to change the way that grants are 
awarded to ensure guarantees better understanding of the 
requirements of active partners in overseeing the use of 
taxpayers funding?
    Ms. Jeffrey. I don't think lack of understanding is the 
problem. I think it's lack of emphasis and priority.
    Mr. Allen. All right. Ms. Giblin, in their report, GAO 
stated that the corporation does not ensure program officers 
are offered or received professional development in key areas. 
Specifically, GAO sites that program officers in the AmeriCorps 
stayed in a national program office generally did not receive 
professional development or fiscal monitoring even though it is 
a core responsibility of their grant monitoring responsibility.
    How can program officers effectively monitor grants if they 
do not have the essential knowledge to do so? What is the 
corporation doing to ensure all employees involved in grant 
monitoring have the knowledge and skills to effectively monitor 
grants?
    Ms. Giblin. Well, CNCS has, in the year that we have been 
undergoing the GAO audit, has reassessed its training program 
and has dedicated considerable funds to ensure that program 
officers and grants officers alike have received necessary 
training. Specifically, with regard to fiscal oversight, our 
grants officer staff have benefitted greatly from enhanced 
training dollars to ensure that they are certified in the field 
which they serve.
    Mr. Allen. What kind of results have we seen from this 
effort so far?
    Ms. Giblin. I think that some of the successes that the IG 
has cited with a continued and robust commitment to ensuring 
that the oversight is provided, that costs are disallowed and 
recovered, and that we are working in a more effective and 
efficient manner.
    Mr. Allen. Is everyone fully on board with this requirement 
of education and how long will it take to get folks up to speed 
on where they need to be?
    Ms. Giblin. I know the agency is fully on board with 
ensuring that we are dedicating limited resources to the 
training protocols for the agency and, to date, I have seen 
evidence of that.
    Mr. Allen. Okay, well, thank you for your testimony here 
today and thank you for what you do for us. I yield back.
    Chairman Guthrie. Gentleman yields back. I am pleased to 
recognize the gentleman from California, Mr. DeSaulnier, for 5 
minutes of questioning.
    Mr. DeSaulnier. Thank you, Mr. Chairman. And I do want to 
thank the chairman and the ranking member for having this 
hearing.
    Last weekend, the Oversight and Government Reform 
Committee, we had a very good bipartisan hearing on 
recommendations by the business community that regularly 
oversees the Department of Defense budget and they identified 
$125 billion of waste in that budget. I would remind members 
that in the Skinny Budget, one of the reasons why we would be--
why the administration wants to eliminate the budget for this 
program, which I think is incredibly valuable, is to move that 
money to the Department of Defense. So we have to consider both 
our committee assignments and the expertise we develop, but 
also the larger budget as it applies to all citizens.
    And I would just say it is striking for me to have been in 
that last hearing and hear such a bipartisan approach to 
finding out where we can enforce the McKinsey report that was 
part of the recommendations to the Department of Defense to 
make sure that they do not waste money.
    But in this instance, it seems like, Mr. Chairman, that 
this is more of a partisan issue, which I really think it 
should not be. If you believe in a program, which I do in this 
program, and I can cite local instances of it working at least 
anecdotally, we want the best oversight.
    So, Ms. Jeffrey, you mentioned about the tiered approach 
and maybe that does not work, less of a tiered approach with 
the Department of Defense since there is more direct spending 
and it is Federal spending. But I know coming from local 
government, we have had issues when I was in local government 
and State government with Head Start programs, with community 
block grant programs, with workforce investment boards being 
administrated properly, either in terms of the oversight in the 
Federal region, having the proper oversight, or at the State 
level or at the local level or at the grantee level.
    All of that dynamic, we are hoping to come together to make 
a program work. CCDBG, in particular, when that works, it works 
really well and I have seen it not work well and I have seen 
some political influence where the auditors at the local level 
and the State level basically cover themselves to the Federal 
audit.
    So what I want to do is make sure that we are both--having 
come from the restaurant business, we used to say that there 
were really good gross operators and good net operators, and 
you want to be both.
    So you mentioned that State commissions; some do better 
than others. It certainly sounds like a subjective analysis or 
judgement. How do we get the high-performing States to bring 
the low-performing States up? Or was it your implication that 
this tiered system does not work in this instance?
    Ms. Jeffrey. I don't recommend throwing out the tiered 
system, but I think your inclination that the application of 
good business risk management principles is absolutely the way 
to go.
    CNCS is always going to have limited resources, cannot 
provide the same level of oversight to every grant. But at the 
same time, you don't need to oversee a $40,000 grant the way 
you oversee a $10 million grant. So risk management helps you 
decide where best to deploy those resources.
    I think there has been a number of efforts to bring peer-
to-peer knowledge to bear with grantees with State commissions 
like Ms. Darling's to help educate others. The difficulty is 
that different States commit different levels of resources to 
their commissions. We have one State commission that has a 
single employee. No matter what, that person is not going to be 
able to bring the same level of oversight as a well-resourced 
commission.
    Mr. DeSaulnier. I am sure California is right there at the 
top with Texas.
    Ms. Jeffrey. California actually is.
    Mr. DeSaulnier. Of course. I would not ask that question or 
make that observation if I did not know the answer.
    So, Ms. Giblin, it strikes me, and just a quote from GAO 
report, their second observation, we have found that CNCS's 
current process for grant monitoring is not fully aligned with 
Federal internal controls for identifying, analyzing, 
responding to the risk. So what is your timeline to come into 
compliance and what is your corrective? How do you interact 
with both the committee, but also the GAO and the inspector 
general, so that you are reviewing this so we know that you are 
both acting in good faith to correct it and that you have a 
timeline to complete that?
    Ms. Giblin. Thank you for that question. I recently brought 
on staff who are well-versed in risk management and risk 
assessment and I am augmenting that staff with additional 
consultants, third-party objective consultants, who can bring 
industry knowledge to the organization as we work to implement 
the recommendations from the GAO. I do enjoy a collaborative 
work relationship with the IG and will be seeking her input, as 
I have in the 11 months that I've served at the corporation, 
and would be happy to report back progress to this committee in 
any fashion that you would see fit.
    Mr. DeSaulnier. Well, I think considering the budget 
recommendation, a timeline with a sense of urgency would be 
very important for the commission.
    Ms. Giblin. Understood, and we are presently working on a 
12-month timeline. Thank you. Thank you, Mr. Chair.
    Chairman Guthrie. The gentleman yields back. I would like 
to again thank our witnesses for taking the time to testify 
before the subcommittee today. And now I am pleased to 
recognize Ms. Adams for any closing remarks that she may have.
    Ms. Adams. Thank you, Mr. Chair, and thank you all for 
sharing your testimony today. CNCS plays an invaluable role in 
communities across the country. I think we have heard that 
today and, as a matter of fact, heard it several months ago as 
well. It helps harness the talent and the skills of the 
American volunteer, helps to connect Americans with volunteer 
opportunities to fit local needs, and builds off of public-
private partnerships to make a difference. And, indeed, it has 
made a difference as CNCS continues to strengthen its oversight 
program.
    I know that CNCS will improve its monitoring and better 
serve our Nation, and so I am pleased to continue to support 
the program and would encourage Congress to robustly fund 
service programs and not eliminate them. Thank you so very much 
for being here.
    Chairman Guthrie. Thanks to the gentlelady. As I had made 
in my remarks, I mean we should always be pushing ourselves to 
do better. Congress, this body has not just an authorizing 
responsibility, but an oversight responsibility, and so I 
really do appreciate the chairman and the ranking member 
providing this opportunity. I appreciate all of you being here 
to share your perspectives.
    My colleagues, Democratic colleagues, said that this 
hearing was about a previous single incident of wrongdoing. In 
fact, this hearing is about the corporation's record over a 
number of years as an inability to protect the taxpayer dollars 
and monitor those dollars in a risk-based fashion and collect 
improper disbursements, and that hurts the participants when we 
do that. It detracts from the mission and our purpose with this 
program. As the chairman and others noted, there was $47 
million in improper payment in just 1 year at SeniorCorps.
    Now, having sat through this hearing and listened to my 
colleagues, I think we have a bipartisan agreement that one of 
the most important functions that this committee has is 
oversight. And I think, I am hoping, just as I appreciate the 
great work that has been done over the past 6 months and hoping 
this oversight hearing will serve continuous down that path of 
increased accountability and program effectiveness and the 
investment of the taxpayer dollars and the--because I know 
there are great programs out there and we need to do that. We 
will continue to hold the agency accountable for how it spends 
taxpayer dollars. It is nothing personal. It is just what our 
responsibility is.
    And so I do want to thank all the members and the witnesses 
and as well as the staff on both sides of the aisle because--
with the hard work of the staff that help us to be able to do 
these types of hearings.
    Without objection, there being no further business, the 
subcommittee stands adjourned.
    [Additional submissions by Mr. Courtney follow:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    [Whereupon, at 12:06 p.m., the subcommittee was adjourned.]
                             
                             [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
